NO.
IN THE
SUPREME COURT OF THE UNITED STATES

DAVID CASWELL,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI

J. W. CARNEY, JR.
J. W. CARNEY, JR. & ASSOCIATES
20 Park Plaza, Suite 1405
Boston, MA 02116
(617) 933-0350 / JCarney@CARNEYdefense.com

i

QUESTION PRESENTED
In 2014, the Federal Bureau of Investigation
(FBI) investigated a child pornography website
known as “Playpen.” The FBI seized the website and
continued to operate it in an attempt to identify its
users. Law enforcement sought and obtained a
search warrant to deploy a Network Investigative
Technique (“NIT”). The warrant, which authorities
used to search thousands of computers across the
world, was issued by a magistrate judge sitting in
the Eastern District of Virginia. The NIT worked by
deploying a code to a Playpen user’s computer that
would in return transfer information to law
enforcement, including the internet protocol address
(“IP Address”) of that user, thus allowing the FBI to
identify the computer’s location. The FBI deployed
the NIT for approximately two weeks while they
continued to operate Playpen and child pornography
continued to be disseminated, downloaded, and
shared around the world.
The question presented is:
I) Did the FBI act in good-faith when it indicated
to a magistrate judge that property to be searched
pursuant to a search warrant application was located
in the Eastern District of Virginia, when in fact the
true place to be searched was computers throughout
the country, the vast majority of which were beyond
the geographic limits of the magistrate’s authority?

ii
LIST OF PARTIES
All parties appear in the caption of the case on
the cover page.

iii
TABLE OF CONTENTS
QUESTION PRESENTED.......................................... i
LIST OF PARTIES ..................................................... ii
TABLE OF CONTENTS ........................................... iii
TABLE OF AUTHORITIES...................................... iv
PETITION FOR A WRIT OF CERTIORARI .............1
DECISION BELOW ....................................................1
JURISDICTION ..........................................................1
CONSTITUTIONAL PROVISION INVOLVED ........2
STATEMENT OF THE CASE ....................................3
Factual Background ..........................................3
District and Appellate Court Proceedings ........7
REASONS FOR GRANTING THE PETITION .......13
CONCLUSION ..........................................................23
Appendix 1
Eleventh Circuit Court of Appeals Opinion
United States v. David Caswell,
2019 WL 4447325 (September 17, 2019)
Appendix 2
Eleventh Circuit Court of Appeals Opinion
United States v. James Ryan Taylor,
935 F.3d 1279 (11th Cir. 2019)

iv
TABLE OF AUTHORITIES
Cases
Arizona v. Evans,
514 U.S. 1 (1995) .......................................... 17
Davis v. United States,
564 U.S. 229 (2011) ....................... 14, 16, 17, 18
Herring v. United States,
555 U.S. 135 (2009) ............................. 16, 17, 18
Illinois v. Krull,
480 U.S. 340 (1987) .........................................17
In re Warrant to Search a Target
Comput. at Premises Unknown,
958 F. Supp. 2d 753 (S.D. Tex. 2013) .............10
Rivera v. United States,
928 F.2d 592 (2d Cir. 1991) .............................19
United States v. Fletcher,
91 F.3d 48 (8th Cir. 1996) ...............................18
United States v. Henderson,
906 F.3d 1109 (9th Cir. 2018) .........................20
United States v. Horton,
863 F.3d 1041 (8th Cir. 2017) .........................16
United States v. Janis,
428 U.S. 433 (1976) .........................................14

v
TABLE OF AUTHORITIES - Continued
United States v. Leon,
468 U.S. 897 (1984) ................................. passim
United States v. Martinez,
869 F.Supp. 202 (S.D.N.Y. 1994) ....................19
United States v. McClain,
444 F.3d 556 (6th Cir. 2005) ...........................18
United States v. McGough,
412 F.3d 1232 (11th Cir. 2005) .......................18
United States v. McLamb,
880 F.3d 685 (4th Cir. 2018) ...........................16
United States v. Moorehead,
912 F.3d 963 (6th Cir. 2019) ...........................20
United States v. Reilly,
76 F.3d 1271 (2d Cir. 1996) .............................19
United States v. Taylor,
935 F.3d 1279 (11th Cir. 2019) ............... passim
United States v. Wanless,
882 F.2d 1459 (9th Cir. 1989) .........................18
Constitutional Provisions
U.S. Const. Amend. IV ...................................... passim

vi
TABLE OF AUTHORITIES - Continued
Statutes and Rules
Fed. R. Crim. P. 41 ......................................................6
Sup. Ct. R. 13.3 ............................................................1
18 U.S.C. § 3231 ..........................................................1
28 U.S.C. § 636(a) ........................................................6
28 U.S.C. § 1291 ..........................................................1
28 U.S.C. § 1254 ..........................................................1

1
PETITION FOR A WRIT OF CERTIORARI
David Caswell respectfully petitions the Court for
a writ of certiorari to review the opinion and
judgment entered by the United States Court of
Appeals for the Eleventh Circuit on September 17,
2019.
DECISION BELOW
The Eleventh Circuit did not publish its opinion.
It is reproduced at Pet. App. 1a. That decision, to the
extent it related to the Question Presented, relies
completely on a published decision of the Eleventh
Circuit, United States v. Taylor, 935 F.3d 1279 (11th
Cir. 2019). The Taylor opinion is also included in the
appendix at 9a.
JURISDICTION
The United States District Court in the Middle
District of Florida had jurisdiction over Mr. Caswell’s
federal criminal prosecution for possession of child
pornography pursuant to 18 U.S.C. § 3231. The
United States Court of Appeals for the Eleventh
Circuit had jurisdiction over his appeal pursuant to
28 U.S.C. § 1291. That court issued its opinion and
judgment on September 17, 2019. Mr. Caswell did
not seek rehearing.
This Court’s jurisdiction is invoked pursuant to
28 U.S.C. § 1254. This petition is filed within 90 days

2
of the Eleventh Circuit’s judgment, and is therefore
timely under Sup. Ct. R. 13.3.

3
CONSTITUTIONAL PROVISION INVOLVED
U.S. Const. amend IV:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation,
and particularly describing the place to be searched,
and the persons or things to be seized.

4
STATEMENT OF THE CASE
a. Factual Background
In approximately August 2014, the FBI began
investigating a website named “Playpen.” Playpen
was an internet message board dedicated to the
advertisement and distribution of child pornography.
It is usually easy for law enforcement to identify
people who access websites because most websites
maintain a log that lists the Internet Protocol (IP)
address used by each visiting computer. With the IP
address and a subpoena to an internet service
provider – i.e., the company that provides internet to
your home or office – law enforcement can typically
learn the location of the computer that was assigned
the IP address, and from there, the identity of the
user.
Playpen, however, did not operate on the
conventional internet. Playpen was hosted on an
anonymous internet network, The Onion Router, or
“TOR” for short. TOR was originally developed by the
United States Navy for the purpose of protecting
government communications. It is now available for
download by the public and is used by people who
want to maintain the privacy of their internet
activities. Unlike the ordinary internet,
communications on TOR are bounced through a

5
network of computers around the world, which in
turn disguises the user’s actual IP address. Thus,
when a TOR user accesses a website, the only IP
address that registers is that of the last computer
through which the communication was routed. It is
therefore impossible to trace these communications
back to the original computer, allowing users to
operate in anonymity. Websites themselves can be
set up on TOR as “hidden services.” Playpen
operated as a hidden service and, as a result, the IP
address of the computer hosting the website was
hidden.
A foreign law enforcement agency provided
information to the FBI that allowed the agency to
trace Playpen’s IP address to a computer hosting
facility in Lenoir, North Carolina. The FBI made a
copy of the server associated with the IP address and
confirmed it held a copy of the Playpen website.
The server was moved to a government facility
located in Newington, Virginia, in the Eastern
District of Virginia. Playpen’s creator was then
arrested and indicted by the federal government.
Rather than immediately shutting the website down,
the FBI assumed administrative control of Playpen
and kept it running, while monitoring visitors’
activities. The FBI operated this child pornography
website for 13 days as users continued to

6
disseminate, download, and share child pornography.
However, all the Playpen users were anonymous, due
to the TOR network, and the FBI was unable to
identify the IP addresses or other personal
information of the site’s users.
To circumvent this anonymity, the FBI sought a
search warrant in the Eastern District of Virginia to
employ a Network Investigative Technique
(hereafter “NIT”) that would enable law enforcement
to identify and locate Playpen’s users. The NIT was a
digital program that would deploy on the Playpen
website and surreptitiously transmit code to any
computer that accessed it. The user’s computer
would then send identifying information, without the
user’s knowledge or consent, to a governmentcontrolled computer in the Eastern District of
Virginia, including its IP address, operating system,
host name, username, and Media Access Control
address.
FBI Special Agent Douglas Macfarlane wrote and
signed the application for the NIT search warrant.
In the warrant affidavit, Special Agent Macfarlane
stated that the property to be searched was located
in the Eastern District of Virginia. The property to
be seized was the identifying data that the NIT
would extract after deploying malicious code to the
user’s computers, located around the world.

7
The scope of the warrant request was enormous.
According to the affidavit, there were over 150,000
Playpen members with 11,000 unique users in a
single week. The FBI sought approval from a
magistrate judge to search tens of thousands
computers and, because of TOR, it did not know the
exact locations of these computers. Special Agent
Macfarlane wanted, and was granted, the authority
to search any computer wherever that computer was
located. The application indicated, however, that the
“property to be searched” – i.e., the visiting
computers that were having their identifying
information sent back to the FBI – were located in
the Eastern District of Virginia.
Special Agent Macfarlane’s application was
reviewed by Magistrate Judge Theresa Buchanan of
the Eastern District of Virginia. She granted the
search warrant on February 20, 2015. A magistrate
judge’s authority at that time was limited both by
the Federal Magistrates Act, 28 U.S.C. § 636(a) and
Rule 41(b) of the Federal Rules of Criminal
Procedure. Special Agent Macfarlane’s
misrepresentation that the property to be searched
was located in Eastern District of Virginia, even
though the vast majority of the computers were
outside of the district, caused the magistrate judge to
issue a warrant that affected property outside of her
jurisdiction, contrary to both statute and rule. That

8
Playpen’s server was located in the Eastern District
of Virginia, under FBI control, is immaterial,
because the server was not the source that held the
relevant information; to the contrary, it was the
computers, located nation-wide and globally, that
contained the information that the government
sought to search and seize.
The search warrant permitted the FBI to use the
NIT to search any computer that accessed Playpen
over a 30-day period and to seize from those
computers the identifying information.
One of those computers belonged to the
Petitioner, David Caswell. Mr. Caswell’s computer
was traced to the Middle District of Florida. Using
the NIT, the FBI determined that a user
“WhaddupYall” had logged onto Playpen, and then
obtained that user’s IP address. An administrative
subpoena to the IP’s internet service provider,
Comcast, revealed that Mr. Caswell was financially
responsible for the internet service provided. Based
on the information provided by the NIT, law
enforcement obtained a search warrant for Mr.
Caswell’s home in Naples, Florida. Officers raided
Mr. Caswell’s home, searched his computer, and
discovered child pornography. Mr. Caswell admitted
to possessing the child pornography files in an
interview with officers during their search.

9
b. District and Appellate Court Proceedings
Mr. Caswell was indicted by a federal grand jury
for Possession of Child Pornography in violation of 18
U.S.C. §§ 2252 (a)(4)(B) and (b)(2). He filed a motion
to suppress the evidence obtained by the
government’s use of the NIT. The District Court
denied the motion to suppress and Mr. Caswell’s
motion to reconsider. Mr. Caswell was convicted
following a jury-waived trial, and sentenced to 36
months in federal custody. As of the filing date of
this petition, Mr. Caswell is incarcerated at FCI
Coleman in Sumterville, Florida.
Mr. Caswell appealed the denial of his motion to
suppress to the Eleventh Circuit Court of Appeals.
He contended in part that the NIT warrant was void
ab initio because it was issued in violation of the
magistrate’s authority; that the good-faith exception
to the exclusionary rule does not apply to warrants
that are void ab initio; and that even if the
exclusionary rule did apply, the FBI did not act in
good faith when it indicated to the magistrate judge
that the property to be searched was located in the
Eastern District of Virginia.
As relevant to the Question Presented, the
Eleventh Circuit concluded that “our recent decision
in [United States v. Taylor, 935 F.3d 1279 (11th Cir.

10
2019)] forecloses Caswell’s NIT-warrant arguments”
and affirmed the denial of the motion to suppress.
In Taylor, a divided panel of the Eleventh Circuit
unanimously found that the NIT warrant was issued
in violation of Federal Rule of Criminal Procedure
41(b) and the Federal Magistrates Act, 28 U.S.C. §
636(a), thus rendering it void ab initio. 935 F.3d at
1281. The search, therefore, was warrantless and
violated the Fourth Amendment. Id. at 1288. The
court also held that the good faith exception applies
to warrants void ab initio, as the exclusionary rule is
concerned with deterring police misconduct, and not
with regulating a magistrate’s actions. Id. at 1282.
The panel split on the final issue: whether the good
faith exception announced in United States v. Leon,
468 U.S. 897 (1984) applied in the circumstances
concerning the NIT warrant.
The majority concluded that the FBI acted in
good faith, and declined to suppress the evidence. Id.
at 1292-93. While noting that “the NIT-warrant
application was perhaps not a model of clarity,” the
majority found that the FBI did not seek to deceive
the magistrate, or act in any other way that
necessitated deterrence as a remedy. Id. at 1291. It
also determined that the agents “did the best they
could with what they had” and that the affidavit was
“not close” to perfect, but did not rise to “chicanery,”

11
“duplicity,” and “gamesmanship.” Id. at 1292.
Because the affidavit indicated that the NIT would
deploy in the Eastern District of Virginia and cause
activating computers “wherever located” to send
information to the FBI, the majority was satisfied
that the agents had acted in good faith. Id.
Judge Tjoflat, writing in dissent, sharply
disagreed with the majority’s conclusions:
The officials knew or should have
known that there was an issue with
jurisdiction and that the search would
occur outside the district. Yet, the
officials told the magistrate repeatedly
that the search would take place in the
district. If the law condones this
conduct, it makes a mockery of the
warrant process.
Id. at 1293 (Tjoflat, J., concurring in part and
dissenting in part). The dissent continues by
painstakingly detailing the government’s awareness
of the jurisdictional problems presented by the
warrant application, and its efforts to obscure the
NIT’s true reach from the magistrate. Judge Tjoflat
notes that in 2013 – two years before the NIT
warrant application – a federal magistrate judge in
Texas issued a published decision denying a nearly
identical warrant application that would allow the

12
FBI to search computers outside of the district. Id. at
1294-95 (citing In re Warrant to Search a Target
Comput. at Premises Unknown, 958 F. Supp. 2d 753,
755 (S.D. Tex. 2013)). Thus, it was “unacceptable” for
the FBI and Department of Justice (DOJ) to “ignore
the jurisdictional issue altogether” and “repeatedly
assert that the search was within the district and fail
to mention to the magistrate the problems that led
another judge to deny a substantially similar
warrant.” Id. at 1295-96.
Evidence suggesting that the government was
aware of the jurisdictional conundrum did not stop
with the Texas decision. Less than six months after
that case was decided, the Acting Assistant Attorney
General for the U.S. Department of Justice sent a
letter to the Advisory Committee on the Federal
Rules of Criminal Procedure urging that Rule 41 be
amended to permit magistrates to issue warrants for
remote computer searches. Id. at 1296. The Justice
Department cited the denial of the warrant
application in In re Warrant in its letter as
justification for the proposed rule change. Id. DOJ
continued to advocate for a change to the rule
through memoranda and submissions to the Rules
Committee, one of which used a supposed
hypothetical in support of the amendment that was
identical the scenario posed in the Playpen
investigation. Id. at 1296. Judge Tjoflat determined

13
that the FBI Special Agents and DOJ attorneys
knew of the jurisdictional problem in the warrant
application, and the agents who presented it at a
minimum should have known they were acting
improperly in concealing the scope of the request. Id.
at 1296 n.5.
The dissent detailed that despite knowing that
the warrant exceeded the bounds of Rule 41, the FBI
repeatedly stated that the search would occur in the
Eastern District of Virginia, which is where the
Playpen server was located. Id. at 1298-99. By
contrast, only twice did the agent mention in the
affidavit – without any explanatory details – that the
NIT could cause computers “wherever located” to
relay information to the government. Id. at 1299.
Judge Tjoflat summarized the problem with the
conflicting designations of the search’s location:
If the officials knew that the search
would be of computers outside the
district, it was unacceptable to swear
that the search would be within the
district. If, perhaps, the officials had
some other reasonable basis for
believing that the search was still
within the magistrate's jurisdiction,
they needed to present it to the
magistrate. It would be recklessly

14
misleading to submit a warrant
application to a magistrate repeatedly
stating the search would be within the
district, with one buried caveat, when
the officials' only reason for stating that
is some novel theory they declined to
share with the magistrate.
Id. at 1301.
The dissent concludes that because law
enforcement recklessly misled the magistrate, the
good faith exception was inapplicable. See id. at
1304. The dissent reasons that applying the
exception to the NIT warrant would sanction a
standard where law enforcement officials can
knowingly apply for a constitutionally deficient
warrant, discretely reveal the problem in the body of
the application, and have no concerns about the
warrant’s validity so long as the magistrate does not
detect the issue that they intentionally failed to
adequately identify. Id. at 1303. Consistent with the
purpose of the exclusionary rule, the dissent
concludes that in order to deter law enforcement
from attempting such methods again, suppression is
the appropriate result for all of the NIT cases:
[W]e must follow the law even when
faced with unpleasant outcomes.
Otherwise, we excuse conduct, like the

15
conduct at issue here, which invites
strategic duplicity into the warrant
process . . . today’s decision undermines
the integrity of the warrant process – a
process which plays a crucial role in
protecting the rights guaranteed by our
Constitution.
Id.
REASONS FOR GRANTING THE PETITION
The breadth of the search warrant that the FBI
obtained in this case was massive. It allowed law
enforcement to search thousands of computers and
prosecute scores of defendants across the United
States. It sent malicious code to computers worldwide. At least 70 federal prosecutions, including that
of Mr. Caswell, were the result. The grounds on
which the government obtained the warrant,
however, were unlawful and deliberatively deceptive.
The Eleventh Circuit’s decision denying suppression
and finding that the FBI acted in good faith is
erroneous based on a plethora of evidence
establishing that the government was aware of the
jurisdictional problem in the warrant application,
and nevertheless chose to conceal the issue from the
magistrate. The decision warrants review by this
Court for three reasons.

16
First, the Supreme Court has long held that
suppression is about deterrence. The exclusionary
rule exists in order to “deter future Fourth
Amendment violations” and “compel respect for the
constitutional guaranty.” Davis. v. United States, 564
U.S. 229, 236-37 (2011). Exclusion is warranted as a
remedy where it will yield “appreciable deterrence.”
United States v. Janis, 428 U.S. 433, 454 (1976).
However, the circuit courts, the dissent in the
Eleventh Circuit notwithstanding, have summarily
held that suppression was not the appropriate
remedy, when in fact, it is the only remedy available
to push back against government deception.
Second, these decisions push past the bounds of
the Supreme Court’s jurisprudence on the good faith
exception under Leon, and in effect make any
government misdeed – here, deceiving a federal
magistrate judge – beyond remedy. The Leon good
faith exception is not a catchall provision that law
enforcement can rely on whenever it presents a
deficient warrant, and yet that is what the circuit
courts have set out as the state of the law with their
decisions.
Third, although the warrant would be lawful
today thanks to an amendment to Rule 41 that
became effective on December 1, 2016, this problem
could easily be repeated in a different context.

17
Allowing these searches to stand without
repercussion invites the government to continue to
push the boundaries of what is lawful in the hope
that it will once again be rescued when the Courts
fail to condemn its conduct. A post-hoc rule-change is
evidence that what the FBI did was not within the
bounds of criminal procedure as it existed at the time
it sought the NIT warrant.
Mr. Caswell recognizes that this Court has
reviewed and denied petitions for writs of certiorari
in other cases stemming from this investigation.1
However, those denials each predate the divided
opinion from the Eleventh Circuit in Taylor, which
provided the rationale for the holding in this case.
Additionally, Taylor was the first circuit court
opinion concerning the NIT search to consider at
length whether misleading statements concerning
the scope of the intended search constituted a
reckless disregard for the truth.2 This was the sole
See e.g., Tippens v. United States, No. 19-6008; Moorehead v.
United States, No. 19-5444; Henderson v. United States, No. 188694; Werdene v. United States, No. 18-5368; Kienast and Broy
v. United States, No. 18-1248; McLamb v. United States, No. 179341; Workman v. United States, No. 17-7042; Horton v. United
States, No. 17-6910.
1

The Fourth and Eighth Circuits each briefly addressed and
dismissed this issue with little discussion. See United States v.
McLamb, 880 F.3d 685, 690-91 (4th Cir. 2018); United States v.
Horton, 863 F.3d 1041, 1051-52 (8th Cir. 2017).
2

18
issue that divided the panel in Taylor, and led to the
only dissenting opinion in any appellate decision
concerning this warrant.
The exclusionary rule exists in order to “deter
future Fourth Amendment violations” and “compel
respect for the constitutional guaranty.” Davis 564 at
236-37. As the Court has stated, “[f]or exclusion to be
appropriate, the deterrence benefits of suppression
must outweigh its heavy costs.” Id. Leon and its
progeny emphasize that the greater the police
misconduct involved in the warrant process, the
greater the deterrent benefit of exclusion. See id. at
238 (citing Herring v. United States, 555 U.S. 135,
143-44 (2009)). “When the police exhibit ‘deliberate,’
‘reckless,’ or ‘grossly negligent’ disregard for Fourth
Amendment rights, the deterrence value of exclusion
is strong and tends to outweigh the resulting costs.”
Id. (quoting Herring, 555 U.S. at 144). By contrast,
cases involving law enforcement officers who in good
faith believed their conduct was lawful, or who
engaged in “isolated” negligence, do not justify
exclusion. Id.
As Judge Tjoflat’s dissent makes clear, the
conduct at issue in this investigation was both
“deliberate” and “reckless.” The manner in which the
warrant application was written was intentionally
deceptive to the magistrate. Not only did the

19
government decline to alert the magistrate to the
jurisdictional problem, which it was clearly aware of,
but it then circumvented it altogether by falsifying
the location where the search would occur. Such
conduct evinces bad-faith by the FBI, and should not
be left unchecked.
The Court has considered the applicability of the
good-faith exception in several contexts, though
never in an investigation or case as wide-ranging
and significant as this one. For example, in Leon, the
Court held that the exception applies where officers
reasonably rely on a warrant that is later
invalidated. Leon, 468 U.S. at 922. In Illinois v.
Krull, the rule was extended to searches conducted
on subsequently invalidated statutes. 480 U.S. 340,
349-50 (1987). Similarly, the doctrine has been
applied to officers acting in reliance on binding
appellate precedent that is later overturned. Davis,
564 U.S. at 241. Officers who reasonably relied on
erroneous arrest warrant information in a database
maintained by judicial employees were also entitled
to the good-faith exception in Arizona v. Evans, 514
U.S. 1, 14 (1995). The rule in Evans was then
extended when the Court held that officers could rely
on a database containing incorrect warrant
information that was updated by police employees.
Herring, 555 U.S. at 137.

20
The common thread throughout these cases,
which does not exist here, is that the officers did not
intentionally skirt the Fourth Amendment in order
to carry out a search. In fact, since Leon, the Court
has never applied the exclusionary rule in a case
where evidence was obtained by way of innocent
police action. Davis, 564 U.S. at 240 (citing Herring,
555 U.S. at 144). There would be no deterrent effect
to doing so. By contrast, several circuit courts have
held that the good faith exception does not apply in
cases where warrants were sought on the basis of
other evidence that was unlawfully obtained. See
e.g., United States v. McGough, 412 F.3d 1232, 123940 (11th Cir. 2005) (exception did not apply where
application relied on information obtained from
illegal search of defendant’s apartment); United
States v. Wanless, 882 F.2d 1459, 1466-67 (9th Cir.
1989) (no good faith where warrant was issued based
on information obtained from illegal searches of
multiple vehicles). Other courts have adopted a
similar stance whereby Leon only applies if the
officer’s unlawful conduct in obtaining evidence used
in support of the warrant was “close to the line of
validity” such that the officer reasonably believed his
actions were legal. See e.g., United States v. McClain,
444 F.3d 556, 566 (6th Cir. 2005); United States v.
Fletcher, 91 F.3d 48, 51-52 (8th Cir. 1996).

21
In cases where officers intentionally fail to
disclose problematic information to the magistrate,
the good faith exception does not apply. See United
States v. Reilly, 76 F.3d 1271, 1281 (2d Cir. 1996). In
Reilly, the United States Court of Appeals for the
Second Circuit declined to apply the exception where
officers neglected to include any information in the
application concerning an illegal search they had
conducted of the subject property, as well as
information about its curtilage, which was “crucial”
to the magistrate’s understanding of the application,
and was adverse to the officer’s position. Id. at 128081. The Court stated that “recklessness may be
inferred when omitted information was ‘clearly
critical’ to assessing the legality of a search.” Id. at
1280 (citing Rivera v. United States, 928 F.2d 592,
604 (2d Cir. 1991); United States v. Martinez, 869
F.Supp. 202, 208 (S.D.N.Y. 1994)). Additionally,
“[t]he good faith exception to the exclusionary rule
does not protect searches by officers who fail to
provide all potentially adverse information to the
issuing judge[.]” Id.
This case is directly in line with the cases in
which courts of appeals have declined to apply the
good faith exception. Unlike the cases decided by this
Court, there is an obvious deterrent effect in
suppressing the evidence here, as discussed infra.
Likewise, this case is directly on point with Reilly in

22
that Special Agent Macfarlane recklessly omitted
information in the warrant application that was
adverse to his position.
This case presents an opportunity for the Court to
define the type of law enforcement conduct that will
and will not be tolerated under the Fourth
Amendment. The dissent in Taylor illustrates the
divide amongst the judiciary over whether the FBI’s
actions in this case were lawful. It also demonstrates
why the majority – as well as other circuit courts
that have considered the issue – was incorrect in
finding good faith and applying Leon.
Some courts have held that the mistake in this
case is attributable to the magistrate, thus absolving
law enforcement from responsibility. See United
States v. Moorehead, 912 F.3d 963, 970-71 (6th Cir.
2019). But it was not the magistrate who drafted the
warrant application, or who repeatedly misstated
where the search would occur. Those actions were
committed by the Department of Justice – no one
else. Likewise, courts have reasoned that because
Rule 41 has been amended, there is no deterrent
effect to exclusion because the NIT warrant would be
legitimate if issued today. See United States v.
Henderson, 906 F.3d 1109, 1119-20 (9th Cir. 2018).
Yet this rationale assumes that the deterrence
afforded by suppression could only impact future

23
warrant applications identical to this one. In reality,
exclusion of evidence in this case will deter law
enforcement from drafting warrant applications in
the future – made in any context for any type of
search – in deceptive and misleading ways. That
Rule 41 has been updated has no bearing on whether
the FBI will think twice the next time it knowingly
presents a legally deficient warrant application to a
magistrate. The government’s repeated efforts to
convince the Rules Committee to amend Rule 41 is
further evidence of an effort to clean up its
unconstitutional actions. Failure to sanction the
conduct in this case will not lead the government to
craft warrant applications that are honest and open
about potential deficiencies. Allowing this conduct to
stand will only incentivize law enforcement to
“obscure potential problems in a warrant
application” and place “the onus on the magistrate to
spot the issues,” without fear of consequences.
Taylor, 935 F.3d at 1303 (Tjoflat, J., concurring in
part and dissenting in part). Granting this petition
will allow this Court to have the final say over
whether the government’s actions were in good faith,
and whether this type of behavior will be tolerated in
the future.
While Taylor provided the basis for the opinion in
this case, the Court should still grant the petition for
certiorari for the case at bar. The record in this case

24
was more complete than that in Taylor, and included
documents and evidence that Taylor did not raise.
Specifically, Mr. Caswell submitted three documents
in the District Court that were not present in Taylor:
an excerpt of a transcript of an agent’s testimony in a
related NIT case, United States v. Anzalone, No. 1510347-PBS; an excerpt from the 2009 Computer
Crime and Intellectual Property Section guide
entitled “Searching and Seizing Computers and
Obtaining Electronic Evidence in Criminal
Investigations”; and the letter from Acting Attorney
General Mythili Raman to the Advisory Committee
on the Rules of Criminal Procedure.
The aforementioned documents demonstrate that
the FBI and DOJ were aware of the warrant’s
limitations, and nevertheless submitted it to the
magistrate judge in a manner deceiving as to its true
scope. In Anzalone, Special Agent Daniel Alfin
testified that the agents “worked very closely with
the Department of Justice on this operation.” Indeed,
the FBI partnered with DOJ’s Child Exploitation and
Obscenity Section as well as the Computer Crime
and Intellectual Property Section (hereinafter
“CCIPS”). This point is noteworthy considering that
the CCIPS manual that Mr. Caswell offered stated
“[a]lthough the courts have not directly addressed
the matter, the language of Rule 41 combined with
the Supreme Court’s interpretation of ‘property’ may

25
limit searches of computer data to data that resides
in the district in which the warrant was issued.” This
guide was written in 2009, five years before the NIT
warrant. These documents all indicate that both FBI
and DOJ knew that the NIT application was
deficient and still presented it to the magistrate .
Of note, Judge Tjoflat referenced the letter to
Mythili Raman in his dissenting opinion, despite it
not appearing in the Taylor record. Given that it was
discussed at length in Mr. Caswell’s briefs, and that
Judge Tjoflat was part of the panel that issued the
opinion in this case, it is clear that Mr. Caswell’s
arguments influenced the content of his dissent. For
these reasons, the Court should grant the petition as
to this case.
CONCLUSION
For the foregoing reasons, this Court should grant
the Petition for Writ of Certiorari.
DAVID CASWELL, Petitioner
By his attorneys,
J. W. CARNEY, JR. & ASSOCIATES

J. W. Carney, Jr.
J. W. Carney, Jr.*
20 Park Plaza, Suite 1405
Boston, MA 02116
617-933-0350

26
JCarney@CARNEYdefense.com

Daniel J. Gaudet
Daniel J. Gaudet
20 Park Plaza, Suite 1405
Boston, MA 02116
617-933-0350
DGaudet@CARNEYdefense.com
*Counsel for Petitioner

27
APPENDIX TO THE PETITION FOR A WRIT
OF CERTIORARI
Eleventh Circuit Court of Appeals Opinion
United States v. David Caswell,
2019 WL 4447325 (September 17, 2019) ........1a
Eleventh Circuit Court of Appeals Opinion
United States v. James Ryan Taylor,
935 F.3d 1279 (11th Cir. 2019) ......................9a

1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-11211
Non-Argument Calendar
_____________________
D.C. Docket No. 2:16-cr-00134-JES-MRM-1
UNITED STATES OF AMERICA, Plaintiff-Appellee,
versus
DAVID CASWELL, Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
(September 17, 2019)
Before TJOFLAT, JORDAN, and NEWSOM,
Circuit Judges.
PER CURIAM:
This appeal stems from the district court’s denial
of a motion to suppress evidence discovered pursuant
to a nationwide warrant out of the Eastern District

2a
of 2 Virginia, which authorized the use of a “network
investigative technique” to track down patrons of a
child-pornography website. Challenges to evidence
secured under the so-called “NIT warrant” have
cropped up in dozens of courts across the country
including, most recently, our own. See United States
v. Taylor, No. 17- 14915 (11th Cir. Aug. 28, 2019). In
this iteration, David Caswell appeals his conviction
for possession of child pornography, arguing that the
district court erred in denying his motion to suppress
both the evidence obtained as a result of the NIT
warrant and statements that he made to officers
before he was given Miranda warnings. We disagree.
Because our recent decision in Taylor forecloses
Caswell’s NIT-warrant arguments, and because the
district court did not plainly err in concluding that
he was not in custody at the time of his questioning
(and thus not entitled to Miranda warnings), we
affirm.1
I
Caswell argues that the district court erred in
denying his motion to suppress evidence obtained
under the NIT warrant because (1) the magistrate
judge lacked authority to issue the warrant under
Federal Rule of Criminal Procedure 41(b) (2015) and
28 U.S.C. § 636(a) and (2) the warrant failed to meet
the Fourth Amendment’s particularity requirement.
Even accepting both contentions as true, neither
The facts are known to the parties; they are included here only
as necessary to aid in our analysis.
1

3a
changes the outcome for Caswell because, as we
found in Taylor, the goodfaith exception to the
exclusionary rule applies to the FBI’s NIT-warrant
application. See Taylor, slip op. at 3–4.2 Cf. United
States v. Eldred, No. 17-3367- cv, 2019 WL 3540415,
at *8 (2d Cir. Aug. 5, 2019); United States v. Ganzer,
922 F.3d 579, 587–90 (5th Cir.), petition for cert.
filed, No. 19-5339 (2019); United States v.
Moorehead, 912 F.3d 963, 971 (6th Cir.), petition for
cert. filed, No. 19- 5444 (2019); United States v.
Kienast, 907 F.3d 522, 527–29 (7th Cir. 2018), cert.
denied, 139 S. Ct. 1639 (2019); United States v.
Henderson, 906 F.3d 1109, 1116– 20 (9th Cir. 2018),
cert. denied, 139 S. Ct. 2033 (2019); United States v.
Werdene, 883 F.3d 204, 214–19 (3d Cir.), cert. denied,
139 S. Ct. 260 (2018); United States v. McLamb, 880
F.3d 685, 691 (4th Cir.), cert. denied, 139 S. Ct. 156
(2018); United States v. Levin, 874 F.3d 316, 323–24
(1st Cir. 2017); United States v. Horton, 863 F.3d
1041, 1050–52 (8th Cir. 2017), cert. denied, 138 S.
Ct. 1440 (2018); United States v. Workman, 863 F.3d
1313, 1319–21 (10th Cir. 2017), cert. denied, 138 S.
Ct. 1546 (2018).
Because Caswell challenges the same warrant
application and affidavit that we recently deemed
adequate in Taylor, that case controls our decision
We did not reach the question of particularity in Taylor, but
we did acknowledge that the magistrate judge in the Eastern
District of Virginia exceeded her statutory authority under §
636(a) such that the NIT warrant was void ab initio. See
Taylor, slip op. at 3. Because we find that here, as in Taylor, the
good-faith exception applies, we need not address either issue.
2

4a
here: 2 We did not reach the question of particularity
in Taylor, but we did acknowledge that the
magistrate judge in the Eastern District of Virginia
exceeded her statutory authority under § 636(a) such
that the NIT warrant was void ab initio. See Taylor,
slip op. at 3. Because we find that here, as in Taylor,
the good-faith exception applies, we need not address
either issue. Although imperfect, the application and
accompanying affidavit sufficiently disclosed the
bounds of the intended search.3 Evidence gathered
under the NIT warrant does not invite the “harsh
sanction” of exclusion as law enforcement’s actions
were neither “deliberate enough to yield
‘meaningfu[l]’ deterrence, [nor] culpable enough to be
‘worth the price paid by the justice system.’” Davis v.
United States, 564 U.S. 229, 240 (2011) (first
alteration in original) (quoting Herring v. United
States, 555 U.S. 135, 144 (2009)). Accordingly, the
district court did not err in denying Caswell’s motion
to suppress evidence that he possessed child
pornography.
II
Caswell also asserts that his statements to the
agents must be suppressed because he was not given
Caswell insists that the outcome here should be different
because he “raises arguments about the good-faith exception
that were not addressed by the defendant in Taylor” and
introduces additional documents into evidence. Reply Br. at 1
(section heading). Having reviewed the record and briefs,
however, we find that Caswell fails to raise any arguments that
are not foreclosed by our opinion in Taylor.
3

5a
Miranda warnings prior to questioning. Caswell
waived this argument, however, by failing to
specifically object to the magistrate judge’s findings
of fact or conclusions of law regarding his motion to
suppress the statements. He also failed to raise the
issue in his motion for reconsideration. Thus, we
review this objection for plain error only. See 11th
Cir. R. 3-1 (stating that although “[a] party failing to
object to a magistrate judge’s findings or
recommendations . . . waives the right to challenge
on appeal the district court’s order based on
unobjected-to factual and legal conclusions,” we “may
review on appeal for plain error if necessary in the
interests of justice”). Plain error is error that is “clear
or obvious” and has “affected the defendant’s
substantial rights,” which ordinarily requires a
defendant to demonstrate “a reasonable probability
that, but for the error, the outcome of the proceeding
would have been different.” United States v. Corbett,
921 F.3d 1032, 1037 (11th Cir. 2019) (quoting
Molina-Martinez v. United States, 136 S. Ct. 1338,
1343 (2016)). When these criteria are met, we
“should exercise [our] discretion to correct the
forfeited error if the error seriously affects the
fairness, integrity or public reputation of judicial
proceedings.” Molina-Martinez, 136 S. Ct. at 1343
(citation and quotation marks omitted). As we have
previously explained, “[a]n error is not plain unless it
is contrary to explicit statutory provisions or to onpoint precedent in this Court or the Supreme Court.”
United States v. Schultz, 565 F.3d 1353, 1357 (11th
Cir. 2009).

6a
Relevant to Caswell’s claim, the Fifth
Amendment provides that “[n]o person . . . shall be
compelled in any criminal case to be a witness
against himself.” U.S. Const. amend. V. In Miranda
v. Arizona, the Supreme Court concluded that,
pursuant to this decree, statements made during a
“custodial interrogation” are not admissible at trial
unless the defendant was first advised of his rights,
including the right against self-incrimination. 384
U.S. 436, 444 (1966),
An individual is considered to be “in custody” for
Miranda purposes when there is either a “formal
arrest or restraint on freedom of movement of the
degree associated with a formal arrest.” United
States v. Brown, 441 F.3d 1330, 1347 (11th Cir. 2006)
(quoting California v. Beheler, 463 U.S. 1121, 1125
(1983)). An interviewee’s “status as a suspect, and
the ‘coercive environment’ that exists in virtually
every interview by a police officer of a crime suspect,
[does] not automatically create a custodial situation.”
United States v. Muegge, 225 F.3d 1267, 1270 (11th
Cir. 2000). Instead, courts must consider on a caseby-case basis whether, under the totality of the
circumstances, an objectively reasonable person
would have felt free to leave the scene. Brown, 441
F.3d at 1347. Factors relevant to this analysis
include “whether the officers brandished weapons,
touched the suspect, or used language or a tone that
indicated that compliance with the officers could be
compelled.” United States v. Luna-Encinas, 603 F.3d
876, 881 (11th Cir. 2010) (citation and quotation
marks omitted). Another “powerful factor” is whether

7a
officers “[u]nambiguously advis[e]” the interviewee
“that he is free to leave and is not in custody.”
Brown, 441 F.3d at 1347. And, while the location of
the interview is “not dispositive,” courts are less
inclined to find a custodial encounter “when the
interrogation occurs in familiar or at least neutral
surroundings.” Id. at 1348 (citation and quotation
marks omitted). The custody inquiry presumes an
objectively reasonable interviewee—“the actual,
subjective beliefs of the defendant and the
interviewing officer on whether the defendant was
free to leave are irrelevant.” Id. at 1347 (quoting
United States v. Moya, 74 F.3d 1117, 1119 (11th Cir.
1996)).
Caswell argues that he was interrogated while in
custody because he was repeatedly questioned about
his use of Playpen and possession of child
pornography, was accused of being untruthful, and
was told that law enforcement knew he had accessed
child pornography. Caswell also points out that six or
seven officers executed the search warrant, that he
was questioned for nearly three hours, and that he
was not permitted to call his wife when he asked to
do so. Caswell contends that because no reasonable,
innocent person would have felt free to leave under
the same circumstances, he was in custody and thus
entitled to Miranda warnings. Because the agents
failed to give the warnings, he asserts, the district
court should have suppressed his statements.
There is no plain error here. To be sure, this is
not the clearest case of a non-custodial interview. As

8a
Caswell points out, there were six or seven officers
present, accusing him of lying, for up to three hours.
That being said, under the totality of the
circumstances, a reasonable person likely would
have felt free to leave: Caswell had agreed to speak
with the officers on his own back patio, was not
under arrest, and was not physically restrained. See
Luna-Encinas, 603 F.3d at 881. The officers also told
him “[u]nambiguously” that he was free to leave,
could refuse to talk to them, and was not going to be
arrested that day. See Brown, 441 F.3d at 1347.
Caswell points to no “on-point precedent” finding a
custodial interview on facts such as these;
accordingly, it was in no way “clear or obvious” error
for the district court to conclude that he was not in
custody for Miranda purposes. Schultz, 565 F.3d at
1357; Corbett, 921 F.3d at 1037 (citation omitted).
Therefore, the district court did not plainly err in
determining that Caswell was not entitled to
Miranda warnings or in denying his motion to
suppress the statements made during the interview.
AFFIRMED.

9a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 17-14915
_____________________
D.C. Docket No. 2:16-cr-00203-KOB-JEO-1
UNITED STATES OF AMERICA, Plaintiff-Appellee,
versus
JAMES RYAN TAYLOR, Defendant-Appellant.
________________________
No. 18-11852
_____________________
D.C. Docket No. 4:16-cr-00312-VEH-JHE-1
UNITED STATES OF AMERICA, Plaintiff-Appellee,
versus
STEVEN VINCENT SMITH, Defendant-Appellant.

10a

________________________
Appeals from the United States District Court
for the Northern District of Alabama
________________________
(August 28, 2019)
Before TJOFLAT and NEWSOM, Circuit Judges,
and ANTOON,* District Judge.
NEWSOM, Circuit Judge:
James Taylor and Steven Smith are the latest
in a long line of child pornography consumers to
argue that the evidence of their crimes should be
suppressed because the warrant that led to its
discovery—issued by a magistrate judge in the
Eastern District of Virginia but purporting to
authorize a nationwide, remote-access computer
search—violated the Fourth Amendment. By our
count, we become today the eleventh (!) court of
appeals to assess the constitutionality of the socalled “NIT warrant.” Although the ten others
haven’t all employed the same analysis, they’ve all
reached the same conclusion—namely, that evidence
discovered under the NIT warrant need not be
suppressed. We find no good reason to diverge from
that consensus here, but the case nonetheless calls
for careful consideration, as it implicates several
important issues.

11a
As an initial matter, did the NIT warrant
violate Federal Rule of Criminal Procedure 41(b),
which specifies where and in what circumstances a
magistrate judge may issue a warrant—and
relatedly, if the warrant did violate Rule 41(b), was
that violation of constitutional magnitude? We hold
that because the magistrate judge’s actions exceeded
not only Rule 41(b) but also her statutorily
prescribed authority under the Federal Magistrates
Act, 28 U.S.C. § 636(a)—which circumscribes the
scope of a magistrate judge’s jurisdiction—the
warrant was void ab initio, rendering any search
purporting to rely on it warrantless and thus
presumptively unlawful under the Fourth
Amendment.
That leads us to the question of remedy, which
we take in two parts: First, is exclusion required—
without regard to the reasonableness of the officers’
reliance—where, as here, the warrant was void from
the outset, as Taylor and Smith urge? Or, as the
government contends, should a void warrant be
treated no differently from other defective warrants,
such that the good-faith exception to the
exclusionary rule can still apply? We hold that,
because the exclusionary rule is concerned solely
with deterring culpable police misconduct—and not
at all with regulating magistrate judges’ actions—
void and voidable warrants should be treated no
differently; accordingly, an officer’s reasonable
reliance on the former, like the latter, can provide
the basis for applying the good-faith exception.

12a
Second, even if the good-faith exception can
apply when an officer relies on a void warrant,
should the exception apply in the particular
circumstances of this case? We hold that the officers’
warrant application here adequately disclosed the
nature of the technology at issue and the scope of the
intended search, that the officers reasonably relied
on the magistrate judge’s determination that the
search was permissible, and, accordingly, that the
good-faith exception applies in this case.
I
A
We begin with a bit of context. In the normal
world of web browsing, an internet service provider
assigns an IP address—a unique numerical
identifier—to every computer that it provides with
internet access. Websites can log IP addresses to
keep track of the computers that visit, in essence
creating a digital guest book. Internet browsing,
therefore, isn’t quite as private as most people
think—it’s actually pretty easy, for instance, for law
enforcement to find out who visited what sites, when,
and for how long simply by subpoenaing IP-address
logs from service providers.
Not so when it comes to the “dark web,” the
part of the internet “only accessible by means of
special software, allowing users and website
operators to remain anonymous or untraceable.”

13a
Blog.OxfordDictionaries.com.4 “The Onion Router”—
usually abbreviated “Tor”—is one such software
program. Tor, which was the brainchild of the U.S.
Navy but has since been released to the public,
works by routing a user’s webpage requests through
a series of computer servers operated by volunteers
around the globe, rendering the user’s IP address
essentially unidentifiable and untraceable. In the
words of the folks who currently administer the “Tor
Project,” a Massachusetts-based § 501(c)(3)
organization responsible for maintaining Tor, you
might think of what Tor does as “using a twisty,
hard-tofollow route in order to throw off someone
who is tailing you—and then periodically erasing
your footprints.”5
As you can imagine, Tor has plenty of
legitimate uses—think military and law-enforcement
officers carrying out investigations, journalists
seeking to maintain anonymity, and ordinary
See also Ahmed Ghappour, Searching Places Unknown: Law
Enforcement Jurisdiction on the Dark Web, 69 Stan. L. Rev.
1075, 1087 (2017) (“The dark web is a private global computer
network that enables users to conduct anonymous transactions
without revealing any trace of their location.”).
5 See Lee Matthews, What Tor Is, and Why You Should Use It
to Protect Your Privacy, Forbes (Jan. 27, 2017, 2:30 p.m.),
https://www.forbes.com/sites/leemathews/2017/01/27/what-istorand-why-do-people-use-it/#3186d5387d75 (last visited Aug.
27, 2019); see also Tor Project,
https://2019.www.torproject.org/projects/torbrowser.html.en
(“[Tor] prevents somebody watching your Internet connection
from learning what sites you visit, it prevents the sites you visit
from learning your physical location, and it lets you access sites
which are blocked.”) (last visited Aug. 27, 2019).
4

14a
citizens researching embarrassing topics. As you can
also imagine, Tor has spawned—and effectively
enables—a cache of unsavory sites for black-market
trading, child-pornography file-sharing, and other
criminal enterprises. This is so because, in addition
to allowing users to access public websites without
leaving a trail, Tor also hosts a number of so-called
“hidden services,” i.e., sites accessible only through
Tor. You can’t just Google a hidden service; rather, a
user can access one of these Tor-specific sites only by
knowing its exact URL address. Most Tor-site
addresses comprise a random jumble of letters and
numbers followed by the address “.onion”—in place,
say, of “.com” or “.org”—and are shared via messageboard postings on the regular internet or by word of
mouth.
The hidden-service page at issue here,
“Playpen,” was a child-pornographydistribution site
accessible only through Tor. At the time the FBI
began monitoring Playpen, the site contained more
than 95,000 posts, had 160,000 members, and hosted
up to 1,500 visitors per day. The FBI monitored the
site for several months until, based on a foreigngovernment tip, it found and arrested the
administrator. Rather than shuttering Playpen
immediately, the FBI covertly took control of the site
and began operating it out of a government server in
Newington, Virginia, hoping to snare more users.
As a means of ferreting out Playpen visitors
whose identities were masked by Tor, the FBI sought
to deploy government-created malware—specifically,

15a
a computer code called the Network Investigative
Technique (“NIT”)—that would transmit user
information back to the FBI. Here’s how the NIT
worked: When a Playpen user downloaded images
from a Tor-based site, the NIT would essentially
“hitchhike” along, invade the host computer, and
force it to send to the FBI (among other information)
the computer’s IP address, the computer’s host name,
and the username associated with the computer.
Based on that information, the FBI could identify the
user’s internet service provider and the computer
affiliated with the account that accessed Playpen,
thereby unmasking the user and providing probable
cause for the FBI to seek a warrant to seize
computers and hard drives.
B
To effectuate this plan, FBI Agent Douglas
Macfarlane submitted a searchwarrant application
to a magistrate judge in the Eastern District of
Virginia, requesting authorization to deploy the NIT.
The application wasn’t a model of clarity or precision,
particularly regarding the issue that most concerns
us here— namely, the geographic scope of the
requested search authority. In the case caption, the
application described the “property to be searched”—
seemingly without territorial restriction—as
“COMPUTERS THAT ACCESS
upf45jv3bziuctml.onion,” which we now know to be
associated with Playpen. Just below, however, in the
body, the application asserted a reasonable belief
that evidence of child-pornography-related crimes

16a
was contained on property “located in the Eastern
District of Virginia.” As part of the same statement—
regarding the “property to be searched”—the
application referred to an “Attachment A.”
Attachment A in turn stated that the NIT was “to be
deployed on the computer server . . . operating the
[Playpen] website” and specified that the server was
“located at a government facility in the Eastern
District of Virginia.” Attachment A then went on to
state, though, that the goal of deploying the NIT was
to obtain information from “[t]he activating
computers . . . of any user or administrator who logs
into [Playpen] by entering a username and
password.”
As is often the case, the NIT application also
referenced an attached affidavit. Agent Macfarlane’s
affidavit summarized the applicable law, explained
numerous technical terms of art, and described Tor
and the “Target Website”—i.e., Playpen. On page 29
of 31, under the bolded heading “SEARCH
AUTHORIZATION REQUESTS,” the affidavit
stated, for the first time expressly, that “the NIT
may cause an activating computer—wherever
located—to send to a computer controlled by or
known to the government” certain information,
including the IP address and host name.6

The warrant also explained that the NIT would send the
following information: the unique identifier that distinguishes
the data on the host computer from that of other computers, the
type of operating system the host computer is running, whether
the NIT has already been downloaded to the host computer, an
6

17a
A magistrate judge in the Eastern District of
Virginia signed the warrant and the FBI deployed
the NIT.
C
Not long thereafter, NIT-transmitted data
revealed to the FBI that a certain Playpen user was
linked to a computer with the host name
“RyansComputer.” After the user accessed several
images of child pornography, the FBI sent an
administrative subpoena to the user’s internet
service provider and discovered that the IP address
associated with the computer was assigned to James
Taylor in Birmingham, Alabama. A magistrate judge
in the Northern District of Alabama then authorized
a search warrant for Taylor’s residence, where the
FBI seized Taylor’s laptop, hard drive, and USB
drive. After analyzing the hardware twice, the FBI
found what it was looking for.
Steven Smith’s Playpen activities were
discovered in a nearly identical way. As in Taylor’s
case, the NIT revealed that someone had used
Smith’s computer and IP address to log into Playpen.
Based on the NIT data, the FBI subpoenaed records
from an internet service provider and used that
information to secure a warrant from a magistrate
judge in the Northern District of Alabama, allowing
officers to search Smith’s residence in Albertville,
Alabama. The search revealed child-pornography
active operating system username, and a Media Access Control
address.

18a
images on a thumb drive. After arresting Smith, the
officers obtained a search warrant for his office and
seized his work computer, which also contained child
pornography.
Taylor and Smith were charged with receiving
child pornography under 18 U.S.C. § 2252A(a)(2) and
with possessing and accessing child pornography
with the intent to view it under 18 U.S.C. §
2252A(a)(5)(B) & (b)(2). They both moved to suppress
the evidence against them, asserting, as relevant
here, that the NIT warrant violated the Fourth
Amendment, Federal Rule of Criminal Procedure
41(b), and the Federal Magistrates Act, 28 U.S.C. §
636(a), and, accordingly, that the seized images
should be suppressed as fruit of the poisonous tree.
The district court in each case denied the motion to
suppress. Both courts agreed that the NIT warrant
violated the Fourth Amendment—and was thus
void—but declined to suppress the evidence on the
ground that the searches, and the resulting seizures,
fell within the good-faith exception to the
exclusionary rule. Both defendants appealed, and
their cases were consolidated for review and decision.
II
All here agree that the NIT’s extraction and
transmission of Taylor’s and Smith’s information was
a “search” within the meaning of the Fourth
Amendment. U.S. Const. amend. IV.7 All likewise
That Taylor and Smith used Tor to download child
pornography is important because it takes this case out of
7

19a
agree that no exigency or other exception exempted
the FBI from the usual requirement to obtain a
search warrant. See United States v. Cooks, 920 F.3d
735, 741 (11th Cir. 2019) (“[W]arrantless searches
are presumptively unreasonable, ‘subject only to a
few specifically established and well-delineated
exceptions.’” (quoting Katz v. United States, 389 U.S.
347, 357 (1967))). There, the agreement ends. The
parties vigorously dispute whether the NIT warrant
was valid and, if not, whether (and to what extent)
that fact should bear on the admissibility of the
evidence found. Accordingly, we are faced with the
following issues, each with its own twists and turns:
(1) Did the NIT warrant violate Federal Rule of
Criminal Procedure 41(b) and, if so, did it likewise
violate the Fourth Amendment? And (2) if the NIT
warrant did run afoul of the Fourth Amendment,
does the exclusionary rule apply?8
third-party-doctrine land. See Smith v. Maryland, 442 U.S. 735
(1979). Instead of traveling along the equivalent of “public
highways” (by browsing the open internet) or leaving the
equivalent of a calling card at each website visited (as with a
normal internet search), Tor users purposefully shroud their
browsing, such that they have a reasonable expectation of
privacy in their online “movements.” See United States v. Davis,
785 F.3d 498, 507 (11th Cir. 2015) (explaining that the Fourth
Amendment’s protections apply where an individual has
exhibited “a subjective expectation of privacy” that society
recognizes as reasonable (citation omitted)).
In reviewing a district court’s denial of a motion to suppress,
we review factual findings for clear error and the application of
law to those facts de novo. United States v. Ramirez, 476 F.3d
1231, 1235 (11th Cir. 2007). Where, as here, the facts are
8

20a
A
1
Federal Rule of Criminal Procedure 41(b), titled
“Venue for a Warrant Application,” both outlines the
situations in which a magistrate judge may issue a
warrant for a search within her district and specifies
the more limited circumstances in which she may
issue a warrant for a search outside her district.
With respect to the former, Rule 41(b)(1) states that
“a magistrate judge with authority in the district . . .
has authority to issue a warrant to search for and
seize a person or property located within the
district.” Fed. R. Crim. P. 41(b)(1). It is undisputed,
though, that the NIT warrant sought authority to
search for information outside the territorial confines
of the Eastern District of Virginia. And the parties
agree that, for present purposes, Rule 41(b)(4)—
which authorizes “tracking device” warrants—is the
only provision that could have empowered the
magistrate judge to authorize the specific out-ofdistrict search in this case. That rule permits a
magistrate “to issue a warrant to install within the
district a tracking device” to “track the movement of
a person or property located within the district,
outside the district, or both.” Fed. R. Crim. P. 41(b)(4)
(emphasis added).9 Accordingly, the NIT warrant
undisputed, we simply review the legality of a search de novo.
United States v. Phillips, 834 F.3d 1176, 1179 (11th Cir. 2016).
As it turns out, Rule 41(b) has since been amended to add a
provision—subsection (b)(6)—for remote electronic searches of
9

21a
complies with Rule 41(b) only if we conclude that it
was issued in accordance with subsection (b)(4).10
We find two mismatches—one formal (but
telling) and the other substantive. Initially, as a
matter of form, although the government now
defends the NIT warrant on a tracking-device basis,
it conspicuously didn’t seek the warrant under Rule
41(b)(4). Tracking-device warrants issued under
subsection (b)(4) are generally requested pursuant to
a specialized “Application for a Tracking Warrant.”11
Here, though, the FBI seems to have sought the NIT
warrant under Rule 41(b)(1)’s general provision for
warrants authorizing in-district searches. The
warrant application’s cover sheet represented that
the FBI wished to search property “located in the
Eastern District of Virginia,” and neither the
application nor the accompanying affidavit
mentioned the term “tracking device” or otherwise
indicated that the application sought authorization
under subsection (b)(4). The government’s
revisionism on appeal—invoking Rule 41(b)(4) to
defend what was, by all accounts, a Rule 41(b)(1)
the sort at issue in this case. See infra Section II.B.2.
10 No court of appeals has found that the NIT warrant fits
within the tracking-device exception, although this argument
has persuaded a few district courts. See United States v. Taylor,
250 F. Supp. 3d 1215, 1222–23 (N.D. Ala. 2017) (compiling
district and appellate court holdings on NIT-warrant searches).
See, e.g., Administrative Office of U.S. Courts, Criminal
Forms AO 102 (2009) & AO 104 (2016),
http://www.uscourts.gov/forms/criminal-forms (last visited Apr.
26, 2019).
11

22a
application—undermines its position that the Rule’s
tracking-device provision sanctions the NIT warrant.
Moreover, and in any event, we reject the
government’s tracking-device argument on the
merits. For Rule 41 purposes, a “tracking device” is
“an electronic or mechanical device which permits
the tracking of the movement of a person or object.”
18 U.S.C. § 3117(b); see also Fed. R. Crim. P.
41(a)(2)(E) (explaining that “‘[t]racking device’ has
the meaning set out in 18 U.S.C. § 3117(b)”). The
government contends that the NIT constitutes a
tracking device because “just as a GPS tracker
attached to a car will send a receiver coordinates or
other signals with locational information, the NIT
augmented the content of Playpen and sent
locational information back to a governmentcontrolled computer.” Br. of Appellee at 15.
We disagree. The NIT didn’t “track” anything.
Rather, the NIT performed a one-time extraction of
information—including a computer’s IP address,
username, and other identifying material—which it
transmitted to the FBI. Of course, the identifying
information that the NIT extracted and sent was
then traced to a physical address using an internet
service provider’s records. But that the FBI
eventually used the NIT-transmitted information to
discover additional facts that, in turn, enabled it to
then determine a Playpen user’s location in no way
transformed the initial information transmittal into
“tracking.” Indeed, if the term “tracking device”
included every gadget capable of acquiring and

23a
transmitting information that could somehow, in
some way, aid in identifying a person’s location, the
term would be unimaginably broad, including any
phone or camera capable of sending a photo, as
images of buildings, street signs, or other landmarks
can surely be used to identify a location.12
We hold that the NIT is not a “tracking device”
within the meaning of Federal Rule of Criminal
Procedure 41(b), and we reject the government’s post
hoc attempts to classify it as such. Because the NIT
warrant was not authorized by any of Rule 41(b)’s
applicable subsections, the warrant violated the
Rule.
2
So, what effect? While constitutional violations
may merit suppression— more on that later—mere
“technical noncompliance” with a procedural rule
results in the exclusion of evidence only when (1)
“there was ‘prejudice’ in the sense that the search
might not have occurred or would not have been so
abrasive if the rule had been followed,” or (2) “there
The government also points out that the NIT was deployed
from a computer in the Eastern District of Virginia—which, it
says, is the equivalent of a tracking device being “installed
within the district.” But a GPS tracker that is physically
attached to an item within the territorial confines of a
particular district is clearly “install[ed] within” that district. By
contrast, the NIT software, although deployed and activated
from a government computer in the Eastern District of
Virginia, was not “installed within” that district—it was
installed on suspects’ computers outside of the district.
12

24a
is evidence of intentional and deliberate disregard of
a provision in the Rule.” United States v. Williams,
871 F.3d 1197, 1203 (11th Cir. 2017) (citation
omitted).
Which do we have here—a constitutional
violation or just a technical one? The government
says that the violation in this case was merely
technical because Rule 41(b) is just a venue
provision—it has nothing to do with a magistrate’s
power or jurisdiction. The government points out, for
instance, that as of 2016, Rule 41(b) is no longer
titled “Authority to Issue a Warrant,” but rather
“Venue for a Warrant Application.” See Fed. R. Crim.
P. 41(b). And, the argument goes, if Rule 41(b) is an
ordinary venue provision, a breach of its provisions
would not rise to the level of a constitutional
violation.
Fair enough. As we’ve recently been at pains
to emphasize—following the Supreme Court’s lead—
not every mandatory proclamation or prohibition
creates a jurisdictional bar, and we are loath to
“jurisdictionalize” issues unnecessarily. See, e.g.,
Orion Marine Constr., Inc. v. Carroll, 918 F.3d 1323,
1328–29 (11th Cir. 2019); Sec’y, U.S. Dep’t of Labor
v. Preston, 873 F.3d 877, 881–82 (11th Cir. 2017).
Here, though, jurisdiction is squarely in play: While
Rule 41(b) itself may address only venue, the statute
behind the rule—the Federal Magistrates Act, 28
U.S.C. § 636—imposes clear jurisdictional limits on a
magistrate judge’s power. Section 636(a) states that
magistrate judges “shall have within [their]

25a
district[s]” the “powers . . . conferred . . . by law or by
the Rules of Criminal Procedure.” 28 U.S.C. §
636(a)(1) (emphasis added). Because no one contends
that any law or Rule other than Rule 41(b) gave the
magistrate judge the authority to issue the NIT
warrant in this case, when the magistrate issued the
warrant outside of Rule 41(b)’s ambit, she necessarily
transgressed the limits of her jurisdiction.
We aren’t breaking any new ground here. As
now-Justice Gorsuch explained during his tenure on
the Tenth Circuit, § 636(a) “expressly—and
exclusively—refers to the territorial scope of a
magistrate judge’s power to adjudicate” and, further,
is “found in Title 28 of the U.S. Code—the same title
as the statutes that define a district court’s
jurisdiction.” United States v. Krueger, 809 F.3d
1109, 1122 (10th Cir. 2015) (Gorsuch, J., concurring).
Or, as the Ninth Circuit put it, “federal magistrates
are creatures of [§ 636(a)], and so is their
jurisdiction.” N.L.R.B. v. A-Plus Roofing, Inc., 39
F.3d 1410, 1415 (9th Cir. 1994); see also United
States v. Hazlewood, 526 F.3d 862, 864 (5th Cir.
2008) (“In the Federal Magistrates Act, 28 U.S.C. §
636, Congress conferred jurisdiction to federal
magistrate[]judge[s].”). Thus, as § 636(a) is the sole
source of a magistrate judge’s warrant authority, a
warrant issued in defiance of its jurisdictional
limitations is void—“no warrant at all.” Krueger, 809
F.3d at 1118 (Gorsuch, J., concurring).
To be fair, Krueger was an easier case—there,
a magistrate judge in one district purported to

26a
authorize a search in an adjacent district, in which
she clearly had no jurisdiction. The magistrate judge
here, by contrast, issued a warrant purporting to
allow a search of computers “wherever located”—
which, of necessity, included her own district. But
the fact that the warrant in its overbreadth
happened to sweep in the Eastern District of
Virginia along with the rest of the nation doesn’t
cure the fact that it was issued outside of the
magistrate judge’s statutorily prescribed (and
proscribed) authority in the first place. Indeed, the
idea that a warrant may be issued partially from a
place of statutorily-granted authority and partially
from the great beyond (with one foot inside and one
foot outside the lines, so to speak) strikes us as
nonsensical. Rather, it seems to us that a magistrate
judge must act either pursuant to the authority
granted her by statute or not, and thus have the
authority either to issue a warrant (in toto) or not.13
Nor do we see a persuasive case for “severing” the NIT
warrant, so to speak, along jurisdictional lines—such that it
might be deemed valid in the Eastern District of Virginia, even
if invalid everywhere else, and thus not void ab initio and in
toto (to really pour on the Latin). We are aware, of course, that
several courts have held that a warrant can be severed along
what might loosely be called subject-matter lines—i.e., with
respect to probable cause or particularity. See, e.g., United
States v. George, 975 F.2d 72, 79 (2d Cir. 1992) (“When a
warrant is severed (or redacted) the constitutionally infirm
portion—usually for lack of particularity or probable cause—is
separated from the remainder and evidence seized pursuant to
that portion is suppressed; evidence seized under the valid
portion may be admitted.”). But the flaws in the two situations,
it seems to us, are fundamentally different. Subject-matter
13

27a
Because the NIT warrant was void at
issuance, the ensuing search was effectively
warrantless and therefore—because no party
contends that an exception to the presumptive
warrant requirement applies here—violative of the
Fourth Amendment. Accord United States v.
Werdene, 883 F.3d 204, 214 (3d Cir.), cert. denied,
139 S. Ct. 260 (2018); United States v. Horton, 863
F.3d 1041, 1050 (8th Cir. 2017), cert. denied, 138 S.
Ct. 1440 (2018); United States v. Henderson, 906
F.3d 1109, 1116 (9th Cir. 2018), cert. denied, 139 S.
Ct. 2033 (2019).14
B

severance addresses an error made by a properly empowered
official; the error that plagues the NIT warrant is more
fundamental—it implicates the magistrate judge’s power to act
in the first instance.
14 The government also contends—in nearly identical terms in
both cases—that “[b]ecause the search of Taylor’s [and Smith’s]
computer[s] would have been valid if a magistrate judge in the
Northern District of Alabama had signed the NIT Warrant, any
Rule 41(b) violation did not cause [them] prejudice” and
suppression is not necessary. Br. of Appellee at 34 (emphasis
added) (Taylor); see also Br. of Appellee at 29 (Smith). “Taylor
[and Smith] suffered no more of an intrusion of [their] privacy,”
the government contends, “than [they] would have if the FBI
had searched [their] computer[s] under a valid warrant.” Br. of
Appellee at 31 (Taylor); see also Br. of Appellee at 28 (Smith).
No. Had the magistrate judge in the Eastern District of
Virginia acted within her jurisdiction, the warrant could not
have extended to Alabama and the FBI would not have
identified Taylor or Smith, nor would it have had probable
cause to apply for a second warrant to search their homes.

28a
So the search carried out under the NIT
warrant violated not just Rule 41 but also the Fourth
Amendment. But again: What effect? At last we come
to the question at the heart of the remedy that
Taylor and Smith seek. Can the good-faith exception
to the exclusionary rule apply in a situation like this,
where officers rely on a warrant that is later
determined to have been void ab initio? And more
specifically, does the good-faith exception apply in
the particular circumstances of this case?
1
The “exclusionary rule”—which operates to
bar the admission of evidence obtained in violation of
the Fourth Amendment—appears nowhere in the
Constitution’s text. It is, the Supreme Court has
said, not “a personal constitutional right,” but rather
a “judicially created” remedy, whose purpose is to
“deter future Fourth Amendment violations” and
“compel respect for the constitutional guaranty.”
Davis v. United States, 564 U.S. 229, 236–37, 238
(2011) (citation omitted). This remedy, however,
doesn’t follow automatically; society must swallow
the “bitter pill” of suppression when necessary, id. at
238, but only when the “benefit” of exclusion
outweighs its “substantial social costs,” Illinois v.
Krull, 480 U.S. 340, 352–53 (1987). The dual pillars
of the exclusion decision, the Supreme Court recently
emphasized, are deterrence and culpability: “Police
practices trigger the harsh sanction of exclusion only
when they are deliberate enough to yield
‘meaningfu[l]’ deterrence, and culpable enough to be

29a
‘worth the price paid by the justice system.’” Davis,
564 U.S. at 240 (alteration in original) (quoting
Herring v. United States, 555 U.S. 135, 144 (2009));
see also id. (suppression not warranted because
officer did not act “deliberately, recklessly, or with
gross negligence”).
The good-faith exception is a “judicially
created exception to this judicially created rule.” Id.
at 248.15 In United States v. Leon, the Supreme
Court explained that exclusion is not warranted
when police act “in objectively reasonable reliance”
on a subsequently invalidated search warrant—in
other words, when they act in “good faith.” 468 U.S.
897, 922 (1984). “‘[O]ur good-faith inquiry is confined
to the objectively ascertainable question whether a
reasonably well trained officer would have known
that the search was illegal’ in light of ‘all of the
circumstances.’” Herring, 555 U.S. at 145 (quoting
Leon, 468 U.S. at 922 n.23).
Although “good faith” is most often framed as an “exception”
to the exclusionary rule, it is probably more accurately
described as a reason for declining to invoke the exclusionary
rule in the first place. Compare, e.g., Davis, 564 U.S. at 238
(“The Court has over time applied this ‘good-faith’ exception
across a range of cases.” (emphasis added)), with, e.g., id. at 239
(“The question in this case is whether to apply the exclusionary
rule when the police conduct a search in objectively reasonable
reliance on binding judicial precedent.” (emphasis added)), and
Herring v. United States, 555 U.S. 135, 139 (2009)
(characterizing the question presented as “whether the
exclusionary rule should be applied” when officers act in
reasonable reliance on a negligent police database error
(emphasis added)).
15

30a
To date, the Supreme Court has applied the
good-faith exception when, among other things,
officers reasonably relied on a warrant that was later
deemed invalid for lack of probable cause, see Leon,
468 U.S. at 922, on a warrant that erroneously
appeared outstanding due to an error in a court or
police database, see Arizona v. Evans, 514 U.S. 1, 4
(1995); Herring, 555 U.S. at 137, on a statute that
was later deemed unconstitutional, see Krull, 480
U.S. at 352–53, and on a judicial decision that was
later overruled, Davis, 564 U.S. at 232. The Supreme
Court hasn’t, however, directly addressed the
particular question before us today— whether the
good-faith exception can be applied to a search
conducted in reliance on a warrant that was void
from the outset.
Taylor and Smith insist that the void-voidable
distinction is critical. Reliance on a voidable
warrant—issued in error, perhaps, but by a judge
with jurisdiction to act—is different, they contend,
from reliance on a warrant that was void from the
get-go. Because the latter is—as we’ve agreed—“no
warrant at all,” Taylor and Smith insist that reliance
on it can’t provide an exception to the exclusionary
rule. This is so, they continue, because the “heart of
the good faith exception is [] officers’ reliance on a
neutral third party’s actions within the scope of the
third party’s authority.” Br. of Appellant Taylor at
29; Br. of Appellant Smith at 27.
There is a certain logic to this argument: In
fact, there was never a valid warrant, so the search

31a
was illegal all along. What matters for exclusionaryrule and good-faith purposes, though, isn’t the
validity of the warrant “in fact,” but rather the
validity of the warrant as it would have reasonably
appeared to an officer tasked with executing it. The
appropriate question, therefore, is whether, from the
perspective of a reasonable officer, there is any
difference—for deterrence or culpability purposes—
between the warrant issued in this case and the
warrants issued in Leon, Evans, and Herring?
We don’t think so. The exclusionary rule is
concerned with deterring officer misconduct and
punishing officer culpability—not with setting judges
straight. See Herring, 555 U.S. at 142 (observing that
the “exclusionary rule was crafted to curb police
rather than judicial misconduct”). Viewed from an
officer’s perspective, relying on a facially valid
warrant that, as it turns out, was void from the
beginning is no different from relying on a facially
valid warrant that, for instance, was later deemed
improper based on a dubious determination of
probable cause, see Leon, 468 U.S. at 925–26, or
appeared outstanding thanks only to a database
error, see Herring, 555 U.S. at 136–37. So long as an
officer could reasonably have thought that the
warrant was valid, the specific nature of the
warrant’s invalidity is immaterial.
In so holding, we join every court of appeals to
consider the question, all of which have agreed that
the good-faith exception applies—and the
exclusionary rule doesn’t—in a situation like this.

32a
See United States v. Eldred, No. 17-3367-cv, 2019
WL 3540415, at *8 (2d Cir. Aug. 5, 2019); United
States v. Ganzer, 922 F.3d 579, 587–90 (5th Cir.),
petition for cert. filed, No. 19-5339 (2019); United
States v. Moorehead, 912 F.3d 963, 971 (6th Cir.),
petition for cert. filed, No. 19-5444 (2019); Werdene,
883 F.3d at 216–17; United States v. McLamb, 880
F.3d 685, 691 (4th Cir.), cert. denied, 139 S. Ct. 156
(2018); United States v. Kienast, 907 F.3d 522, 527–
28 (7th Cir. 2018), cert. denied, 139 S. Ct. 1639
(2019); Henderson, 906 F.3d at 1118; United States v.
Levin, 874 F.3d 316, 323–24 (1st Cir. 2017); Horton,
863 F.3dat 1050; United States v. Workman, 863
F.3d 1313, 1319 (10th Cir. 2017), cert. denied, 138 S.
Ct. 1546 (2018). As the Sixth Circuit summarized,
“[t]he good-faith exception is not concerned with
whether a valid warrant exists, but instead asks
whether a reasonably well-trained officer would have
known that a search was illegal.” Moorehead, 912
F.3d at 968. The Third Circuit similarly explained
the “fundamental flaw” in the argument like the one
that Taylor and Smith make here: “[I]t does not
appreciate the distinction between the validity of the
warrant and the deterrence rationale of the
exclusionary rule and the good-faith exception.”
Werdene, 883 F.3d at 216.
In light of the exclusionary rule’s purpose of
deterring culpable police misconduct, there is no
reason to distinguish between good-faith reliance on
a void warrant and any other warrant later deemed
defective. We thus hold that the goodfaith exception
to the exclusionary rule can apply when police

33a
officers reasonably rely on a warrant later
determined to have been void ab initio.
2
Finally, then, to this particular case: Having
determined that the good-faith exception can apply
in situations involving void warrants, the question
remains whether the exception should apply to the
cases before us today. In Leon, the Supreme Court
laid out several situations in which the good-faith
exception should not apply: (1) where the magistrate
judge was misled by information in a warrant
application that the applicant knew was false or
would have known was false but for a reckless
disregard of the truth; (2) where the magistrate
“wholly abandoned” her judicial role; (3) where the
affidavit supporting the warrant application was “so
lacking in indicia of probable cause as to render
official belief in its existence entirely unreasonable”;
or (4) where the warrant was “so facially deficient”
that officers couldn’t have reasonably presumed it to
be valid. 468 U.S. at 923.
Here, Taylor and Smith contend—and the
dissent agrees—that the magistrate was, within the
meaning of Leon, “misled by information” in the
application that the FBI officers knew, or should
have known, to be false. The face of the application,
they say, prominently represented that the “property
to be searched” was “located in the Eastern District
of Virginia” and, more specifically, asserted (in the
incorporated Attachment A) that the Playpen server
was “located at a government facility in the Eastern

34a
District of Virginia.” Br. of Appellant Taylor at 42;
Br. of Appellant Smith at 41. It wasn’t until page 29
of Agent Macfarlane’s 31-page affidavit, Taylor and
Smith say, that the application finally acknowledged
that the NIT would search computers “wherever
located.” Br. of Appellant Taylor at 42; Br. of
Appellant Smith at 41. This approach, they contend,
shows that the FBI intentionally misled the
magistrate judge and belies any claim to good-faith
reliance.
In responding that the good-faith exception
should apply, the government begins with the
contention that there is no deterrent benefit to
exclusion here because Rule 41 was recently
amended to add a new subsection to cover remote
access warrants to search electronic storage both
within and outside of a magistrate judge’s district—
i.e., precisely the sort of search at issue in this case.16
But that argument cuts both ways. On the one hand,
it indicates that we needn’t necessarily deter this
particular type of search on a going-forward basis.
On the other, the recent amendment of Rule 41 to
allow remote-access search warrants underscores
that Rule 41(b) did not permit these warrants at the
Rule 41(b)(6) now states in relevant part: “[A] magistrate
judge with authority in any district where activities related to a
crime may have occurred has authority to issue a warrant to
use remote access to search electronic storage media and to
seize or copy electronically stored information located within or
outside that district if . . . the district where the media or
information is located has been concealed through technological
means.”
16

35a
time the FBI deployed the NIT. Even so, we find no
indication that the FBI officers sought to deceive the
magistrate judge or otherwise acted culpably or in a
way that necessitates deterrence—and certainly no
indication of the sort of “deliberate[], reckless[], or . .
. gross[ly] negligen[t]” conduct that the Supreme
Court has recently highlighted as the focus of the
exclusionary-rule/good-faith inquiry. Davis, 564 U.S.
at 240; see also Herring, 555 U.S. at 144; Krull, 480
U.S. at 352–53. While the NITwarrant application
was perhaps not a model of clarity, it seems clear to
us that the officers did the best they could with what
they had—a general application form that was
perhaps ill-suited to the complex new technology at
issue.17 It is true, as Taylor and Smith emphasize,
In concluding that the officers intended to “hoodwink” the
magistrate judge, the dissent relies heavily on DOJ’s proposals
to amend Rule 41 to better address “remote searches for ‘crimes
involving Internet anonymizing technology.’” Dissenting Op. at
36, 45 (quoting Letter from Mythili Raman, Acting Assistant
Att’y Gen., to Hon. Reena Raggi, Chair, Advisory Comm. On the
Crim. Rules (Sept. 18, 2013)). Even setting aside the dubious
proposition that knowledge of communications between the
“highest ranking officials in the Criminal Division” and Federal
Rules Advisory Committee Chairs can be imputed downstream
to line-level law-enforcement officers, see Dissenting Op. at 37–
38, these communications in no way demonstrate that the
warrant application here was made in bad faith. We see no
benefit to deterring officers from attempting to describe cuttingedge countermeasures using the forms and resources at their
disposal while department heads simultaneously seek to amend
the rules to better address advancing technology. Cf. Eldred,
2019 WL 3540415, at *7; McLamb, 880 F.3d at 691. The
dissent’s argument to the contrary is based entirely on
speculation about what different government actors could have
17

36a
that the face of the pre-printed warrant application
stated that “the property to be searched” was
“located in the Eastern District of Virginia.” It is also
true that Attachment A, which described the target
property, reported that the Playpen server was
“located at a government facility in the Eastern
District of Virginia.” That being said, there were
indications that the FBI was seeking more broadranging search authority. As already noted, the case
caption referred generally to “COMPUTERS THAT
ACCESS” Playpen. Somewhat more clearly,
Attachment A explained that the NIT would be
“deployed on” the Playpen-operating server located
in the Eastern District of Virginia as a means of
“obtaining information” from “activating computers,”
defined as computers “of any user or administrator
who logs into” the Playpen site. Finally, and most
importantly—if a bit more obscurely than might
have been ideal—Agent Macfarlane’s affidavit stated
that “the NIT may cause an activating computer—
wherever located—to send” identifying information
to the FBI.
So, was the warrant application here perfect?
Not close. But does it evidence “chicanery,”
“duplicity,” and “gamesmanship”? See Dissenting Op.
at 45, 55. It doesn’t. We conclude that, in their
totality, the application and affidavit sufficiently
disclosed the bounds of the intended search. In light
of the squarepeg/round-hole issue that they faced,
the officers did what we would hope and expect—
known.

37a
they fully disclosed the mechanics of the intended
search, left the constitutional call to the magistrate
judge, and acted in reasonable reliance on the
resulting warrant.18 As already explained, the
“exclusionary rule was crafted to curb police rather
than judicial misconduct.” Herring, 555 U.S. at 142.
Because we don’t find the officers’ behavior here
culpable and see no deterrent value in suppressing
the evidence found on Taylor’s and Smith’s
computers, we find that the good-faith exception to
the exclusionary rule applies in this case.
AFFIRMED

To the extent that the dissent suggests that officers seeking a
search warrant have an affirmative obligation to “flag”
potential legal issues in their application, we must respectfully
disagree. See, e.g., Dissenting Op. at 39 (stating that the
officers here “should have known . . . that the magistrate’s
jurisdiction to issue the warrant was in doubt” and that they
“had an obligation to flag [this] for the magistrate”). Lawenforcement officers have a duty to lay out facts—including
jurisdictional facts—for reviewing courts, not to anticipate and
articulate possible legal hurdles. The warrant application here,
particularly when read in conjunction with Agent Macfarlane’s
detailed 30-plus-page affidavit, adequately—if imperfectly—
lays out the facts. See, e.g., Levin, 874 F.3d at 323 (determining
that there was “no benefit in deterring” the government from
“turn[ing] to the courts for guidance” when faced with a novel
legal question such as whether the NIT warrant could properly
issue).
18

38a

TJOFLAT, Circuit Judge, concurring in part and
dissenting in part:19
As the majority points out, we are far from the
first court to consider whether the NIT warrant
passes constitutional muster. I agree with the
majority that it does not. The majority also adds its
voice to the unanimous chorus of ten other courts of
appeals who have found that, regardless of any
constitutional infirmity, the exclusionary rule should
not apply. On this point, I must respectfully dissent.
The evidence obtained as a result of the NIT
warrant should be suppressed because the law
enforcement officials who sought the warrant are not
entitled to the good faith exception. The officials
knew or should have known that there was an issue
with jurisdiction and that the search would occur
outside the district. Yet, the officials told the
magistrate repeatedly that the search would take
place in the district.20 If the law condones this
conduct, it makes a mockery of the warrant process.
I
19

I concur in all of the majority opinion except for part II.B.2.

The only reference to a search that potentially would occur
outside the district comes buried on page 29 of the 31-page
affidavit after repeated representations by the officers that the
search would take place within the district. See infra part III.
20

39a
First, some background on the exclusionary
rule. The purpose of the exclusionary rule “is to deter
future Fourth Amendment violations.” Davis v.
United States, 564 U.S. 229, 236–37 (2011). But the
point is “to deter police misconduct rather than to
punish the errors of judges and magistrates.” United
States v. Leon, 468 U.S. 897, 916 (1984).
Courts look to all the officials involved in the
warrant process, including those who sought the
warrant in the first place. Id. at 923 n.24 (“It is
necessary to consider the objective reasonableness,
not only of the officers who eventually executed a
warrant, but also of the officers who originally
obtained it or who provided information material to
the probable-cause determination.”). In this case, the
officials who sought the warrant include, at least, the
FBI agent who submitted the warrant application
and the Assistant U.S. Attorney who reviewed it.
Whether to invoke the exclusionary rule turns
largely on “the flagrancy of the police misconduct.”
See id. at 911; see also Herring v. United States, 555
U.S. 135, 143 (2009). Courts ask whether law
enforcement officials knew or should have known
that their conduct was unconstitutional. See Herring,
555 U.S. at 143 (citing Illinois v. Krull, 480 U.S. 340,
348–49 (1987)).
Their conduct is evaluated under an objective
reasonableness standard: “whether a reasonably well
trained officer would have known that the search
was illegal in light of all of the circumstances,”
including this “particular officer’s knowledge and

40a
experience.” Id. at 145 (quotation omitted). This
standard “requires officers to have a reasonable
knowledge of what the law prohibits.” Leon, 468 U.S.
at 919 n.20.
If, under this standard, courts determine that
law enforcement’s conduct was deliberate, reckless,
or grossly negligent, exclusion is likely warranted.
Davis, 564 U.S. at 238. Alternatively, if law
enforcement reasonably relied on a warrant, Leon,
468 U.S. at 922, or on binding judicial precedent,
Davis, 564 U.S. at 249–50, exclusion is not
warranted. This is the so-called good faith exception,
and it makes sense: if law enforcement acted in
objectively reasonable reliance, the conduct was not
culpable—i.e., it wasn’t deliberate, reckless, or
grossly negligent—so there is no misconduct to deter.
That does not mean that whenever law
enforcement obtains a warrant, the good faith
exception applies. For example, if law enforcement
officials misled the magistrate in the warrant
application with material information that they
knew or should have known was false, they are not
entitled to good faith. Leon, 468 U.S. at 923
(“Suppression therefore remains an appropriate
remedy if the magistrate or judge in issuing a
warrant was misled by information in an affidavit
that the affiant knew was false or would have known
was false except for his reckless disregard of the
truth.”). That is what happened here.
There is no question that law enforcement
made a false representation in the NIT warrant

41a
application. On the application, the FBI agent told
the magistrate, in no uncertain terms, that the
property to be searched would be “located in the
Eastern District of Virginia.” Of course, it is
“undisputed” that the search did not take place
within the district. Maj. Op. at 12. Thus, the issue is
whether the officials seeking the warrant made this
false representation deliberately or recklessly. This
issue turns on what a reasonable officer standing in
the shoes of the officials in this case knew or should
have known. For this determination, we must
consider the totality of the circumstances.
II
When the totality of the circumstances is
considered, I have little doubt that a reasonable FBI
agent and federal prosecutor should have known
there was a jurisdictional problem. See United States
v. Martin, 297 F.3d 1308, 1318 (11th Cir. 2002)
(holding that courts “can look beyond the four
corners of the affidavit and search warrant to
determine whether” the good faith exception applies).
Specifically, the Justice Department’s efforts to
change the Federal Rules of Criminal Procedure in
the wake of a similar failed FBI warrant application
in Texas should have made it clear that jurisdiction
would likely be an issue with the NIT warrant.
In 2013—two years before the warrant
application in this case—the FBI applied to a
magistrate judge in Texas for a strikingly similar
warrant. See In re Warrant to Search a Target
Comput. at Premises Unknown, 958 F. Supp. 2d 753,

42a
755 (S.D. Tex. 2013). The FBI was attempting to
identify “[u]nknown persons” who committed bank
fraud and identity theft using “an unknown
computer at an unknown location.” Id. The warrant
sought authorization to “surreptitiously install”
software on the target computer that would extract
certain information and send it back to “FBI agents
within this district.” Id.
In a published decision, the magistrate denied
the warrant application because the search of the
target computer would not take place within the
district. See id. at 756–58. The court explained its
decision: “Since the current location of the Target
Computer is unknown, it necessarily follows that the
current location of the information on the Target
Computer is also unknown. This means that the
Government’s application cannot satisfy the
territorial limits of Rule 41(b)(1).”21 Id. at 757. The
same logic applies to the NIT warrant.
Notably, unlike this case, the FBI addressed
the jurisdictional issue in its supporting affidavit to
the Texas magistrate. See id. at 756. The FBI
“readily admit[ted] that the current location of the
Target Computer [was] unknown,” but nevertheless
maintained that the search would comply with Rule
41(b)(1) “‘because information obtained from the
Target Computer will first be examined in this
The magistrate also found that the warrant did not satisfy
any of the other territorial limits of Rule 41(b), though it does
not appear that the FBI claimed to satisfy any provision other
than Rule 41(b)(1). See id. at 756–58.
21

43a
judicial district.’” Id. (quoting the FBI’s affidavit).
The magistrate rightly rejected the FBI’s argument,
pointing out that it would “stretch the territorial
limits of Rule 41(b)(1)” to absurd lengths: “By the
Government’s logic, a Rule 41 warrant would permit
FBI agents to roam the world in search of a
container of contraband, so long as the container is
not opened until the agents haul it off to the issuing
district.” Id. at 757.
The point is that there was federal precedent
addressing the precise jurisdictional issue raised by
the NIT warrant. Thus, it is not true, as several of
our sister circuits have suggested, that the
jurisdictional issue was a “novel question . . . for
which there was no precedent on point.” United
States v. Levin, 874 F.3d 316, 323 (1st Cir. 2017); see
also United States v. McLamb, 880 F.3d 685, 691
(4th Cir. 2018) (stating that officials seeking the NIT
warrant were “[w]ithout judicial precedent for
reference”), cert. denied, 139 S. Ct. 156 (2018).
Since the FBI sought the warrant in the Texas
case, it seems to fair to say that a reasonable FBI
agent seeking a similar warrant should have been
aware of the issues presented by remote searches of
unknown sources. Granted, the FBI is a large
organization, but the universe of people involved in
these cutting-edge search warrants designed to
uncover anonymous computer users is surely much
smaller. Plus, we know that “the FBI consulted with
attorneys at the . . . FBI’s Remote Operations Unit”
before applying for the warrant. McLamb, 880 F.3d

44a
at 689. Additionally, a reasonable federal prosecutor
who did any research into the legal issues raised by
the NIT warrant should have come across the Texas
case, so the Assistant U.S. Attorney who reviewed
the warrant should have known about it. Thus,
because of the Texas case, the officials applying for
the NIT warrant should have been aware that there
was a potential problem with the magistrate’s
jurisdiction to issue the warrant.
Of course, a magistrate’s decision in Texas,
even in a published opinion, is not binding precedent
for a warrant application in Virginia. I do not
suggest that the Texas case foreclosed officials from
applying for the NIT warrant. Prosecutors and the
FBI could honestly “believe that reasonable
magistrate judges could differ on the legality of the
NIT.” United States v. Werdene, 883 F.3d 204, 218
n.12 (3d Cir. 2018), cert. denied, 139 S. Ct. 260
(2018). For that reason, it would have been perfectly
acceptable for these officials to have applied for the
NIT warrant and explained to the magistrate why
they believed there was jurisdiction. But it was
unacceptable to ignore the jurisdictional issue
altogether—to repeatedly assert that the search was
within the district and fail to mention to the
magistrate the problems that led another judge to
deny a substantially similar warrant.22

The Werdene court suggested that the Texas warrant is not
analogous because it was “significantly more invasive” than the
NIT warrant. Werdene, 883 F.3d at 218 n.12. The more invasive
aspects of the Texas warrant are why the magistrate in that
22

45a
Moreover, the Texas case was not an isolated
occurrence. It had farreaching consequences that
make it almost unthinkable that the officials seeking
the NIT warrant were unaware of the jurisdictional
problem.
Less than six months after the Texas decision,
the Justice Department sent a letter to the Advisory
Committee on the Criminal Rules urging it to amend
the rules to allow for warrants like the one sought in
the Texas case. Letter from Mythili Raman, Acting
Assistant Att’y Gen., to Hon. Reena Raggi, Chair,
Advisory Comm. on the Crim. Rules (Sept. 18, 2013).
Specifically, the Justice Department proposed
amending “Rule 41 of the Federal Rules of Criminal
Procedure to update the provisions relating to the
territorial limits for searches of electronic storage
media.” Id. The amendment would permit magistrate
judges to issue warrants for remote searches for
“crimes involving Internet anonymizing
technologies.” Id. The letter cited the Texas case to
justify the rule change. Id.
While the committee considered the proposed
amendment, the Justice Department continued to
advocate for the change and submitted several
memorandums defending the amendment. In one
memo, dated about two months before the NIT
case found problems with the particularity requirement and the
constitutional standards for video surveillance. See In re
Warrant, 958 F. Supp. 2d at 758–61. Those aspects had nothing
to do with the jurisdictional analysis. See id. at 756–58. The
jurisdictional analysis applies equally here.

46a
warrant, the Justice Department explained as an
example that the amendment would “ensure that a
court is available” to issue warrants “investigating
members of a child pornography group” using “the
Tor network[] to hide from law enforcement.”
Memorandum from David Bitkower, Deputy
Assistant Att’y Gen., to Hon. Reena Raggi, Chair,
Advisory Comm. on the Crim. Rules (Dec. 22, 2014).
These warrants would authorize “the use of the NIT”
to “identify the location of the individuals accessing
the site.” Id. Sound familiar?
Ultimately, the committee recommended
adopting the amendment, which became effective on
December 1, 2016. Memorandum from Hon. Reena
Raggi, Chair, Advisory Comm. on Crim. Rules, to
Hon. Jeffrey S. Sutton, Chair, Comm. on Rules of
Practice and Proc. (May 6, 2015). The Justice
Department’s extensive involvement in the rule
change—including the two highest ranking officials
in the Criminal Division—makes it hard to accept
that none of the Justice Department officials
involved in the NIT warrant was aware of the
jurisdictional issue.23
While the majority finds dubious the proposition that this
knowledge could be imputed to “downstream line-level law
enforcement officers” and finds no deterrent effect in holding
such officers responsible for misleading magistrates regarding
the jurisdictional defects in the warrant application, Maj. Op. at
27 n.14, I disagree. I find it hard to believe that Assistant U.S.
Attorneys are not kept abreast of existing jurisdictional issues
and the efforts their office is taking to solve those issues. I also
find it hard to believe that the “downstream line-level”
23

47a
The Justice Department had a number of
connections to the NIT warrant. First of all, there is
the Assistant U.S. Attorney who reviewed the
warrant application. The FBI also “consulted with
attorneys at the [Department’s] Child Exploitation
and Obscenity Section” before applying for the
warrant. McLamb, 880 F.3d at 689. Significantly, as
part of the same investigation of Playpen, the FBI
and the Justice Department applied for a wiretap
order on the same day that they applied for the NIT
warrant. The wiretap order was to monitor the
private message and chat activity on Playpen. The
affidavit supporting the wiretap application included
a thorough discussion of the NIT warrant. The same
Assistant U.S. Attorney who reviewed the NIT
warrant applied for the wiretap order, along with a
trial attorney for the Department’s Child
Exploitation and Obscenity Section. And the Deputy
Assistant Attorney General for the Criminal Division
approved the wiretap application. Between the Texas
officers—who are doubtlessly experts in these technologies and
techniques—were unaware of the misleading nature of their
statements of fact here. They repeatedly suggested in the
affidavit that a search would take place within a particular
district when the true goal of the warrant was to search any
relevant computers, regardless of their location. Therefore,
contrary to the majority’s assertion that this argument is
“based entirely on speculation about what different government
actors could have known,” id., I believe that the officers here
should have known that they were acting improperly, which
triggers the exclusionary rule. See Herring, 555 U.S. at 143.
The burden should not rest on a magistrate to comb through a
deceptively crafted and contradictory affidavit to detect the true
nature of the warrant request.

48a
case and the rule change, surely at least one of these
officials should have known about the jurisdictional
issue.
The Texas case and the DOJ-requested rule
change show that a reasonable officer in the shoes of
the law enforcement officials seeking the warrant
should have known that there was a jurisdictional
issue. To be clear, I’m not suggesting that the
officials should have known that the magistrate did
not have jurisdiction to issue the warrant. I’m
suggesting that because of these circumstances, they
should have known that the magistrate’s jurisdiction
to issue the warrant was in doubt— that there was a
potential problem with jurisdiction. And if they knew
that there would be an issue with jurisdiction, they
had an obligation to flag it for the magistrate.24

The majority construes this argument to place “an
affirmative obligation to ‘flag’ potential legal issues in their
[warrant] application.” Maj. Op. at 28 n.15. The majority
disagrees with this approach, instead concluding that “[l]awenforcement officers have a duty to lay out facts—including
jurisdictional facts—for reviewing courts, not to anticipate and
articulate possible legal hurdles,” and finding that the warrant
application here “adequately—if imperfectly—lay[ed] out the
facts.” Id. However, the majority misunderstands the
obligations I propose. I suggest merely that, when the officers
and lawyers involved in presenting the affidavit have reason to
believe that they are requesting a warrant that is improper,
they not conceal precedent which is entitled to persuasive
authority. Further, and more importantly, I disagree with the
majority’s characterization of the application here as
“imperfect” but “adequate.” The application had the tendency to
deceive the magistrate by presenting repeated assertions of
24

49a
B
It is also clear that the officials seeking the
warrant knew that the search would not be
contained to the Eastern District of Virginia. The
FBI’s investigation revealed that Playpen had over
150,000 members and that the site received over
11,000 unique users every week. It would be absurd
to believe that all of the users’ computers would be in
the Eastern District of Virginia. A reasonable official
would have believed, correctly as it turns out, that
the users’ computers would be found in districts all
over the country.25
Granted, the NIT technology is complex, and
the uninitiated could be forgiven for not
understanding exactly what is being searched and
where that search would take place. But no one could
credibly argue that the officials who developed the
technology and who were responsible for deploying it
were unclear about how it worked. The FBI knew the
search was of computers, and that those computers
could be anywhere.

misleading facts, while burying the true goal at the back of the
affidavit. I propose that law enforcement has the obligation, at
minimum, to avoid such action.
The only connection to the Eastern District of Virginia was
the server that hosted the site. But the server was originally in
North Carolina; the FBI moved the server to Virginia. And the
site’s administrator lived in Florida. There truly was no reason
to think the site had a special connection to the Eastern District
of Virginia.
25

50a
III
Having established that the officials seeking
the warrant knew or should have known that there
was a potentially fatal jurisdiction problem with the
warrant, let’s take a closer look at how they
presented this issue to the magistrate.26
The caption to the warrant application states
that the search will be of “computers that access” the
Playpen website. Beneath the caption, the FBI agent
seeking the warrant attests, under penalty of
perjury, that he has “reason to believe” the property
to be searched is “located in the Eastern District of
Virginia.”
The application directs the reader to
“Attachment A” for a description of the property to be
searched. Attachment A, titled “Place to be
Searched,” explains that the “warrant authorizes the
use of a network investigative technique (‘NIT’) to be
deployed on the computer server described below” to
obtain certain information “from the activating
A party does not need to provide direct evidence that the false
representation was made deliberately or recklessly; instead, the
court can infer from the warrant application itself that a
misrepresentation was deliberate or reckless if it would be clear
to a reasonable official. Cf. Madiwale v. Savaiko, 117 F.3d 1321,
1326 (11th Cir. 1997) (“A party need not show by direct
evidence that the affiant makes an omission recklessly. Rather,
it is possible that when the facts omitted from the affidavit are
clearly critical to a finding of probable cause the fact of
recklessness may be inferred from proof of the omission itself.”)
(quotation omitted).
26

51a
computers described below.” Below, it explains that
the “computer server is the server operating” the
Playpen website, “which will be located at a
government facility in the Eastern District of
Virginia.” And it explains that the “activating
computers are those of any user or administrator
who logs into the [Playpen] by entering a username
and password.”
Thus, on the face of the warrant application,
officials informed the magistrate that the search
would be in the Eastern District of Virginia. The
application then seemingly supported this assertion
by noting that the server is in the district—the only
geographic reference in the application.
True, an especially discerning magistrate
might have gathered that the search is of computers,
not of the server, so the location of the server is
irrelevant, and the computer of “any user” could be
outside the district. But the question is not whether
it was possible for the magistrate to detect the
error—the exclusionary rule is concerned with police
misconduct, not magistrates’ errors. See Leon, 468
U.S. at 916. The question is whether the magistrate
was misled, and whether law enforcement officials
were responsible for the deception. See id. at 923.
Maybe the magistrate should have noticed. But the
officials who sought the warrant understood the
technology and how the search would work better
than anyone, and if anyone should have noticed, it
was they.

52a
The affidavit supporting the warrant
continues the charade. It mentions repeatedly that
the server is located in the magistrate’s district. Here
are a few examples:






“Accordingly, I request authority to use the
NIT, which will be deployed on the TARGET
WEBSITE, while the TARGET WEBSITE
operates in the Eastern District of Virginia, to
investigate any user or administrator who logs
into the TARGET WEBSITE by entering a
username and password.”
“Under the NIT authorized by this warrant,
the TARGET WEBSITE, which will be located
in Newington, Virginia, in the Eastern District
of Virginia, would augment [the content sent
to visitor’s computers] with additional
computer instructions. When a user’s
computer successfully downloads those
instructions from the TARGET WEBSITE,
located in the Eastern District of Virginia, the
instructions, which comprise the NIT” will
cause the user’s computer to send certain
information to the FBI.
“During the up to thirty day period that the
NIT is deployed on the TARGET WEBSITE,
which will be located in the Eastern District of
Virginia, each time that any user or
administrator logs into the TARGET
WEBSITE by entering a username and
password, this application requests authority
for the NIT authorized by this warrant to
attempt to cause the user’s computer to send

53a
the above-described information to a computer
controlled by or known to the government that
is located in the Eastern District of Virginia.”
The repeated emphasis of the server’s location is
especially suspicious given that the location of the
server was completely irrelevant. The search was of
users’ computers, not of the server.
Why, then, did the affidavit repeatedly
mention the server’s location? It smacks of
desperation, and it appears calculated to lull the
magistrate into a false sense of jurisdictional
security. I can think of no other reason to include so
irrelevant a piece of information so many times.
In contrast, the affidavit is nearly silent on the
decisive data point: the location of the computers. It
is only on page 29 of 31 that the affidavit finally
acknowledges (somewhat explicitly) that “the NIT
warrant may cause an activating computer—
wherever located—to send to a computer controlled
by or known to the government” the information
sought. This is the closest law enforcement comes to
advising the magistrate that the search will occur
outside the district. As a disclosure, it leaves much to
be desired. The affidavit mentions this detail once,
without any explanation of its impact. It does not say
that, therefore, the search might occur outside the
Eastern District of Virginia. It forces the magistrate
to draw the conclusion. It is a breadcrumb, buried in
a dense and complicated affidavit, left for the
magistrate to follow.

54a
In other warrant applications, law
enforcement officials were not nearly so stingy with
information about jurisdiction. For example, in the
Texas case, the government confronted the
jurisdiction problem and supplied the magistrate
with an argument in the affidavit for why it thought
there was jurisdiction. See In re Warrant, 958 F.
Supp. 2d at 756. Courts should expect nothing less.
Even in the wiretap application—submitted
simultaneously with the NIT application by the same
Assistant U.S. Attorney—the application included a
paragraph detailing the jurisdictional basis for the
warrant, even though the jurisdiction for that order
was straightforward and uneventful.27 Here, in
contrast, where there was a major problem with
jurisdiction, any mention of jurisdiction is
conspicuously absent. Why would the same attorney
include a discussion of jurisdiction in one application,
where it was less important, and omit any such
discussion from another, where it was more
important? It is hard to escape the conclusion that
the officials seeking the warrant aimed to conceal the
issue.
The comparison with these other examples
illustrates why the officials in this case did not do
Here is what the wiretap application said about jurisdiction:
“This Court has territorial jurisdiction to issue the requested
order under 18 U.S.C. § 2518(3) because the computer server
intercepting all communications and on which the TARGET
WEBSITE, including the TARGET FACILITIES, are located
will be in Newington, VA, in the Eastern District of Virginia
during the period of inspection.”
27

55a
what we “hope and expect” of law enforcement. Maj.
Op. at 28. The disclosure in the affidavit was
woefully inadequate.
The warrant’s defenders argue that the
disclosure on page 29 “cured” the warrant of any
ambiguity. See, e.g., McLamb, 880 F.3d at 690–91
(“To the extent the form is misleading, [the affidavit]
cured any ambiguity by informing the magistrate
judge that the NIT would cause activating computers
‘wherever located’ to transmit data to the FBI.”).
First of all, it’s odd to say that the disclosure cured
the warrant. The disclosure that the warrant
authorized searches of computers “wherever located”
is the fatal flaw; it’s the reason the magistrate didn’t
have jurisdiction to approve the warrant. How could
revealing the fatal flaw cure the warrant?
More accurately, the suggestion is that by
eventually and indirectly revealing the warrant’s
defect, the officials seeking the warrant absolved
themselves of any bad faith. In other words, law
enforcement officials cannot be accused of bad faith
so long as they technically, no matter how discreetly,
disclose the truth somewhere in the warrant
application. This sets too low a bar. It essentially
gives officials permission to try to hoodwink
magistrates: they can make false statements to the
court so long as they include enough information to
uncover their chicanery. If the magistrate fails to
spot the issue, officials can cloak themselves in good
faith reliance and execute the warrant without fear
of suppression. I refuse to invite such

56a
gamesmanship. If law enforcement officials know of
a problem with their warrant, they need to be
forthcoming about it.
Here’s the other problem with the “cure”
argument: If the language in the application might
have been enough to show the magistrate that the
search would not be in the district, surely it was
enough to reveal the same to the officials seeking the
warrant. After all, wouldn’t we expect the author to
understand his writing better than the reader—
especially when the subject concerns an exceedingly
complex technology with which the author is familiar
and the reader is not? And once the officials realize
the problem, they need to address it, otherwise they
are misleading the magistrate.
Furthermore, the argument that the
application disclosed enough for the magistrate to
discover the defect answers the wrong question. It
focuses on whether the magistrate should have
spotted the issue. Cf. United States v. Horton, 863
F.3d 1041, 1052 (8th Cir. 2017) (“Even if it were
misleading to label the place to be searched as the
Eastern District of Virginia, a reasonable reader
would have understood that the search would extend
beyond the boundaries of the district because of the
thorough explanation provided in the attached
affidavit.”) (emphasis added), cert. denied, 138 S. Ct.
1440 (2018). But, again, the exclusionary rule is
concerned with curbing “police rather than judicial
misconduct.” Herring, 555 U.S. at 142. Thus, the
proper question is, given what the officials knew or

57a
should have known, was it deliberately or recklessly
misleading to present the application the way that
they did. Put differently, did they consciously
disregard a serious risk that the magistrate would
think the search would occur in the Eastern District
of Virginia? It’s plain to me that they did.
If the officials knew that the search would be
of computers outside the district, it was unacceptable
to swear that the search would be within the district.
If, perhaps, the officials had some other reasonable
basis for believing that the search was still within
the magistrate’s jurisdiction, they needed to present
it to the magistrate. It would be recklessly
misleading to submit a warrant application to a
magistrate repeatedly stating the search would be
within the district, with one buried caveat, when the
officials’ only reason for stating that is some novel
theory they declined to share with the magistrate.
Tellingly, at no point in this appeal, nor to our
knowledge in any of the other appeals concerning the
NIT warrant, has the government defended the
warrant on the grounds that the search did in fact
occur in the Eastern District of Virginia. How could
they? Instead, the government has argued that the
NIT search functioned like a tracking device that
was installed within the district, and thus satisfied
Federal Rule of Criminal Procedure 41(b)(4). A
number of district courts have accepted this
argument. See United States v. Workman, 863 F.3d
1313, 1321 n.5 (10th Cir. 2017) (listing cases), cert.
denied, 138 S. Ct. 1546 (2018). In light of these

58a
district court decisions, several of our sister circuits
have said that they will not fault law enforcement for
thinking there was jurisdiction when a number of
federal judges have made the same mistake. See, e.g.,
United States v. Moorehead, 912 F.3d 963, 970 (6th
Cir. 2019) (“But reasonable jurists have come to
different conclusions about whether the NIT
Warrant was valid. We cannot, therefore, expect
officers to have known that this type of warrant was
invalid at the time it was sought.”) (citations
omitted), petition for cert. filed (U.S. May 20, 2019)
(No. 19-5444).28
After the fact, courts can uphold a warrant on
any basis. That same luxury should not extend to a
good-faith analysis of the officials who sought the
warrant. The FBI agent swore in the warrant
application that he had “reason to believe” the
property to be searched was in the Eastern District
of Virginia. An official cannot make that
representation if he does not actually have a reason,
Some of the courts making this point are actually responding
to a different argument. In those cases, the argument was that
the officers executing the warrant were not entitled to good
faith, because the warrant was plainly invalid on its face. See,
e.g., United States v. Henderson, 906 F.3d 1109, 1119 (9th Cir.
2018) (“[O]ne is left to wonder how an executing agent ought to
have known that the NIT warrant was void when several
district courts have found the very same warrant to be valid.”)
(emphasis added), cert. denied, 139 S. Ct. 2033 (2019). I agree
with these courts that it was objectively reasonable for the
executing officers to rely on the warrant and to defer to the
magistrate’s judgment that there was jurisdiction to issue the
warrant.
28

59a
but is instead hoping for the magistrate to find one.
Thus, the suggestion that because a few courts have
upheld the warrant on a tracking-device theory it
was reasonable for the officials seeking the warrant
to believe there was jurisdiction, requires the
assumption that the officials believed there was
jurisdiction for the warrant on a tracking-device
theory.
The problem with this logic is that law
enforcement did not seek, nor did they obtain, a
tracking-device warrant. See Maj. Op. at 13. To
obtain a tracking device warrant, law enforcement
uses a different form from the one used for typical
searches within the district. Compare Administrative
Office of U.S. Courts, Criminal Form AO 102,
Application for a Tracking Warrant (2009), with
Criminal Form AO 106, Application for a Search
Warrant (2010),
https://www.uscourts.gov/forms/criminal-forms (last
visited August 19, 2019).
A reasonable law enforcement official,
especially an FBI agent with 19 years of experience,
would understand the difference between a trackingdevice warrant and a search warrant. A reasonable
official would know that if the jurisdictional basis for
the warrant was a tracking-device theory, he should
seek a tracking-device warrant, or at least make the
magistrate aware of the theory some other way.
Bottom line: it is objectively unreasonable for law
enforcement to believe there is jurisdiction on the

60a
basis of a warrant they did not seek and a theory
they did not present.
***
To recap, the officials knew or should have
known that there was a jurisdiction problem with the
warrant. And they knew the search would not be
within the district. If the search was of computers
outside the district, the only possible basis for
believing the magistrate had jurisdiction to issue the
warrant would have been a tracking-device theory.
But a reasonable official would know the warrant
was not a tracking-device warrant, and it would be
recklessly misleading to seek a regular search
warrant based on a tracking-device theory without at
least alerting the magistrate to the theory. As such,
it appears to me that a reasonable official in these
circumstances would have no basis for believing the
magistrate had jurisdiction.
Even assuming the officials believed there was
jurisdiction, the warrant application was misleading.
The application states repeatedly that the search
would be in the district, even though they knew the
search would be of computers outside the district.
They repeatedly emphasized the location of the
server, which was irrelevant, and completely omitted
any discussion of jurisdiction. The late disclosure
that the computers could be “wherever located” did
not eliminate the risk that the magistrate would be
misled and did not give the officials license to make
disingenuous representations elsewhere. For these

61a
reasons, I believe the officials deliberately or
recklessly misled the magistrate.
IV
Whether the exclusionary rule should apply is,
ultimately, a question of whether the benefits of
deterrence outweigh the costs of suppression. See
Herring, 555 U.S. at 141. The costs—excluding
reliable evidence and possibly allowing the guilty to
go free—are high. Davis, 564 U.S. at 237
(“[Exclusion] almost always requires courts to ignore
reliable, trustworthy evidence bearing on guilt or
innocence. And its bottom-line effect, in many cases,
is to suppress the truth and set the criminal loose in
the community without punishment.”) (citation
omitted). But what about the other side of the scale?
What are the benefits of deterrence in this case?
Other courts have given short shrift to the
benefits of deterrence in this case. They claim there
is minimal deterrent value because (1) the blame lies
with the magistrate for approving the warrant, and
(2) the NIT warrant would now be lawful after the
rule change. See, e.g., Moorehead, 912 F.3d at 970–71
(“The fact that any jurisdictional error here was
made by the magistrate, coupled with the fact that
Rule 41(b) has been amended to authorize warrants
like the one at issue, means the benefits of
deterrence cannot outweigh the costs.”) (quotation
omitted). This misses the point. If the officials who
sought the warrant are culpable for misleading the
magistrate, the fault lies with them. And the object
of suppression would be to deter law enforcement

62a
from misleading magistrates in the future, not to
prevent warrants like this one from issuing.
There is a reason the Supreme Court has said
that if police conduct is deliberate, reckless, or
grossly negligent, “the deterrent value of exclusion is
strong and tends to outweigh the resulting costs.”
Davis, 564 U.S. at 238. If courts decline to invoke the
exclusionary rule in the face of culpable misconduct,
we condone and encourage it. We effectively
establish a new standard for law enforcement. Thus,
even though the NIT warrant would not be valid,
this will not be the last time that law enforcement
officials mislead a magistrate in their quest for a
warrant of dubious validity.
With this case, ten courts of appeals have
sanctioned the following standard: When law
enforcement officials apply for a warrant, even if
they know the warrant is constitutionally suspect, so
long as they technically disclose the facts that would
reveal the problem to a discerning magistrate, no
matter how cursory or buried the disclosure, the
warrant is effectively unimpeachable if the
magistrate fails to detect the problem. I cannot
believe that the law expects so little of law
enforcement, or so much of magistrates.
This standard creates a warped incentive
structure. It encourages law enforcement to obscure
potential problems in a warrant application. Because
officials can be less upfront about problems in a
warrant application, the onus is on the magistrate to
spot the issues. But it is well-established that if a

63a
magistrate makes a mistake—e.g., misses an issue,
gets the law wrong—that mistake will almost always
be forgiven because the police can generally rely on
an approved warrant in good faith. See Leon, 468
U.S. at 922. This is a system designed to encourage
mistakes.
Instead, we should demand the utmost candor
in warrant applications. Before today, I thought we
did. The warrant process is premised on the good
faith of law enforcement. See Franks v. Delaware,
438 U.S. 154, 164 (1978) (“[T]he Warrant Clause . . .
surely takes the affiant’s good faith as its premise . . .
.”). It is “unthinkable” that a warrant application,
“revealed after the fact to contain a deliberately or
reckless false statement,” would be beyond
“impeachment.” Id. at 165. Indeed, if law
enforcement officials were permitted to deliberately
or recklessly include false representations in the
warrant application, “and, having misled the
magistrate, then [were] able to remain confident that
the ploy was worthwhile,” it would neuter the Fourth
Amendment. Id. at 168.
Similarly, candor underpins the rationale for
the good faith exception. We extend good faith to
police executing the warrant because they are
entitled to presume that magistrates are competent.
See Messerschmidt v. Millender, 565 U.S. 535, 547–
48 (2012). But there is no reason to defer to
magistrates’ judgments if law enforcement officials
do not present the court with the full and accurate
picture. See Leon, 468 U.S. at 914–15 (stating that

64a
courts should not defer to a warrant when the
magistrate’s determination was based on a “knowing
or reckless falsity” or when the magistrate was not
presented with “[s]ufficient information”).
It is especially important to demand candor in
warrant applications. The warrant application
process is ex parte, which increases the risk that
false information will be accepted or problems will be
overlooked. See Franks, 438 U.S. at 169 (“The usual
reliance of our legal system on adversary proceedings
itself should be an indication that an ex parte inquiry
is likely to be less vigorous.”). That risk, in turn,
creates a temptation to withhold or obscure
unfavorable information. See id. (“The magistrate
has no acquaintance with the information that may
contradict the good faith and reasonable basis of the
affiant’s allegations.”).
I also don’t think candor is too much to ask
for. When executing a warrant, police are making
decisions in real time. Plus, typically, they are not
lawyers, so we don’t expect them to have as much
knowledge of the law as a magistrate reviewing a
warrant application from the comfort of her
chambers. These considerations do not apply, at least
not to the same extent, to officials seeking a warrant.
Generally, these officials have just as much, if not
more, time for reflection while preparing the
application, as the magistrate does while reviewing
it. And in the frequent cases where police work with
prosecutors to prepare a warrant application, it is

65a
fair to expect them to have a greater knowledge of
the law.
I’m not advocating to change the law—the law
already requires candor in warrant applications. I’m
asking courts to take this requirement seriously.
When the Supreme Court established the good
faith exception, the principal dissent warned that it
would “put a premium on police ignorance of the
law.” Leon, 468 U.S. at 955 (Brennan, J., dissenting).
Justice Brennan predicted that in close cases “police
would have every reason to adopt a ‘let’s-wait-untilit’s decided’ approach in situations in which there is
a question about a warrant’s validity or the basis for
its issuance.” Id. With this decision, his premonition
has come true.
***
I recognize that my decision would have an
unfortunate result. It would invalidate a warrant
that led to the arrest and prosecution of hundreds
who trafficked in child pornography. And it would
suppress the evidence gathered under that warrant’s
authority, likely leading to the release of many of
those offenders. But this unfortunate result is almost
always the consequence when relevant, damning
evidence is excluded. Such a result is the price we
pay to protect the Fourth Amendment rights of the
public. Therefore, we must follow the law even when
faced with unpleasant outcomes. Otherwise, we
excuse conduct, like the conduct at issue here, which
invites strategic duplicity into the warrant process.

66a
Because today’s decision undermines the
integrity of the warrant process— a process which
plays a crucial role in protecting the rights
guaranteed by our Constitution—I respectfully
dissent.

